<html>
<title> - CONFRONTING WHITE SUPREMACY (PART I): THE CONSEQUENCES OF INACTION</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                 CONFRONTING WHITE SUPREMACY (PART I):
                      THE CONSEQUENCES OF INACTION

=======================================================================

                                HEARING

                               BEFORE THE

            SUBCOMMITTEE ON CIVIL RIGHTS AND CIVIL LIBERTIES

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                               AND REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 15, 2019

                               __________

                           Serial No. 116-23

                               __________

      Printed for the use of the Committee on Oversight and Reform


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                  Available on: http://www.govinfo.gov
                    http://www.oversight.house.gov or
                        http://www.docs.house.gov
                        
                        
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-512 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="afdfc0efccdadcdbc7cac3df81ccc0c281">[email&#160;protected]</a>                              
                        
                        
                        
                   COMMITTEE ON OVERSIGHT AND REFORM

                 ELIJAH E. CUMMINGS, Maryland, Chairman

Carolyn B. Maloney, New York         Jim Jordan, Ohio, Ranking Minority 
Eleanor Holmes Norton, District of       Member
    Columbia                         Justin Amash, Michigan
Wm. Lacy Clay, Missouri              Paul A. Gosar, Arizona
Stephen F. Lynch, Massachusetts      Virginia Foxx, North Carolina
Jim Cooper, Tennessee                Thomas Massie, Kentucky
Gerald E. Connolly, Virginia         Mark Meadows, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             James Comer, Kentucky
Katie Hill, California               Michael Cloud, Texas
Debbie Wasserman Schultz, Florida    Bob Gibbs, Ohio
John P. Sarbanes, Maryland           Ralph Norman, South Carolina
Peter Welch, Vermont                 Clay Higgins, Louisiana
Jackie Speier, California            Chip Roy, Texas
Robin L. Kelly, Illinois             Carol D. Miller, West Virginia
Mark DeSaulnier, California          Mark E. Green, Tennessee
Brenda L. Lawrence, Michigan         Kelly Armstrong, North Dakota
Stacey E. Plaskett, Virgin Islands   W. Gregory Steube, Florida
Ro Khanna, California
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan

                     David Rapallo, Staff Director
              Candyce Phoenix, Subcommittee Staff Director
                Valerie Shen, SubcommitteeChief Counsel
                          Amy Stratton, Clerk
               Christopher Hixon, Minority Staff Director

                      Contact Number: 202-225-5051
                                 ------                                

            Subcommittee on Civil Rights and Civil Liberties

                    Jamie Raskin, Maryland, Chairman
Carolyn B. Maloney, New York         Chip Roy, Texas, Ranking Minority 
Wm. Lacy Clay, Missouri                  Member
Debbie Wasserman Schultz, Florida    Justin Amish, Michigan
Robin L. Kelly, Illinois             Thomas Massie, Kentucky
Jimmy Gomez, California              Mark Meadows, North Carolina
Alexandria Ocasio-Cortez, New York   Jody Hice, Georgia
Eleanor Holmes Norton, District of   Michael Cloud, Texas
    Columbia                         Carol D. Miller, West Virginia
                         
                         
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on May 15, 2019.....................................     1

                               Witnesses

Ms. Susan Bro, Co-Founder President/Board Chair, Heather Heyer 
  Foundation
Oral Statement...................................................     9
Mr. George Selim, Senior Vice President of Programs, Anti-
  Defamation League
Oral Statement...................................................    10
Mr. Michael German, Fellow, Brennan Center for Justice
Oral Statement...................................................    12
Mr. Omar Ricci, Chairman, Islamic Center of Southern California
Oral Statement...................................................    14

Written statements of witnesses are available at the U.S. House 
  of Representatives Repository at: https://docs.house.gov.

                           Index of Documents

                              ----------                              

The documents entered into the record during this hearing are 
  listed below, and are available at: https://docs.house.gov.

  * ``Conservative Writer David French Tells How White 
  Supremacists Have Tormented His Family For Opposing Trump'', 
  The Christian Post, Oct. 24, 2016; submitted by Rep. Roy

  * AAI Statement on Confronting White Supremacy

  * Statement, the Lawyer's Committee for Civil Rights Under the 
  Law; submitted by Rep. Clay

  * ``Trump sees immigrants as invaders. White-Nationalist 
  terrorists do, too'', Washington Post; submitted by Rep. Gomez

  * Statement, Jason Kimelman-Block, director, Bend the Arc: 
  Jewish Action; submitted by Rep. Pressley

 
   CONFRONTING WHITE SUPREMACY (PART I): THE CONSEQUENCES OF INACTION

                              ----------                              


                        Wednesday, May 15, 2019

                  House of Representatives,
  Subcommittee on Civil Rights and Civil Liberties,
                         Committee on Oversight and Reform,
                                                   Washington, D.C.

    The subcommittee met, pursuant to notice, at 2:08 p.m., in 
room 2154, Rayburn House Office Building, Hon. Jamie Raskin 
(chairman of the subcommittee) presiding.
    Present: Representatives Raskin, Maloney, Clay, Wasserman 
Schultz, Kelly, Gomez, Ocasio-Cortez, Pressley, Norton, Roy, 
Amash, Meadows, Miller, and Jordan (ex officio). Also present: 
Representative Tlaib.
    Mr. Raskin. The subcommittee hearing will come to order. 
And without objection, the chair is authorized to declare a 
recess of the subcommittee at any point.
    This subcommittee is convening the first in a series of 
hearings on confronting white supremacy, where we will focus on 
the consequences of government policy and inaction.
    And I will now recognize myself for five minutes to give an 
opening Statement, and then turn it over to Mr. Roy from Texas 
for his opening Statement. And we can start by rolling the 
video.
    Mr. Raskin. Okay. It is appearing, you can play it.
    While we are waiting for that to come up, I just want to 
thank all of our witnesses for coming today and everyone 
attending.
    All right. Well, we will let the images go, in any event, 
in the background as I speak.
    We all remember the terrifying trauma that shook 
Charlottesville and the whole country just two years ago. But 
did you know that that event does not appear in the 2017 FBI 
hate crime statistics report? None of the violence which took 
place on television before a horrified Nation even made it as a 
statistic onto our national record of hate crimes. Not the 
horrifying murder of Heather Heyer, which galvanized the 
country against violent white supremacy, nor the 30 other 
assaults, at least, committed by the Neo-Nazis and Klansmen who 
converged on Charlottesville.
    So why not? Charlottesville only reported one hate crime in 
2017, and that occurred four months after these events. So why 
did this festival of racial terror and hate crime not make it 
into the FBI hate crime statistics report? That is one of the 
questions that we seek to answer today about a serious threat 
to American civil liberty, domestic tranquility, and the 
general welfare.
    Today's the subcommittee's first hearing on how America is 
addressing the rise of a particular form of domestic terrorism: 
violent white supremacy. Our purpose is to examine the scope 
and nature of this terrorism, understand the problems the 
government has in collecting relevant data about it, analyze 
what the FBI and the Department of Homeland Security are doing 
and should be doing to address it, and then to ask whether the 
administration is devoting attention and resources commensurate 
to the magnitude of the threat.
    The subcommittee is having a second hearing on June 4 with 
officials from the FBI and the Department of Homeland Security 
because we want to hear detailed answers from them on these 
questions and they've asked for more time to prepare their 
answers.
    The first question we're pursuing is what is the nature and 
scope of the problem? The FBI hate crime statistics are 
considered unreliable by many experts and substantially 
undercount the real number of such events that are committed in 
the United States.
    From 2013 to 2017, the FBI reported on average 7,500 hate 
crimes each year. But during the same period, the Bureau of 
Justice Statistics' National Crime Victimization Survey 
estimated on average 200,000 hate crimes annually. What 
accounts for this disparity? We are going to try to figure it 
out.
    We want to hear about the problems affecting the reporting 
system. The process for data collection seems to break down at 
almost every level. Many hate crime victims do not trust law 
enforcement enough to report incidents in the first place. Then 
even among the hate crimes that are reported to local and State 
authorities, thousands of them are never reported then to the 
FBI. State and local law enforcement reporting to the FBI is 
purely voluntary. Not all agencies participate, and of those 
that do, only 12 percent reported any hate crimes at all in 
2016.
    In 2017, for example, the State of Mississippi only 
reported one hate crime, and the State of Alabama reported nine 
hate crimes. We had hundreds of hate crimes in my home State of 
Maryland over the last three years, so it would be startling if 
there were only one in Mississippi. We know from the work of 
civil rights groups and local reporting that these numbers are 
not accurate.
    Amazingly, the FBI fails to include its own internal hate 
crime statistics into their official numbers, citing technical 
limitations that cannot be resolved until the year 2021. That's 
pretty remarkable.
    Beyond the methodological and statistical problems 
besetting the information gathering process, we also face a 
serious problem conceptualizing in naming the problem. When 
Dylann Roof, a 21-year-old white supremacist, murdered nine 
African American worshippers at a prayer service at the Emanuel 
African Methodist Episcopal Church in Charleston, South 
Carolina, on June 17, 2015, do we classify this explosion of 
violence as domestic terrorism or do we simply call it a hate 
crime and hope that it makes its way onto the illusive hate 
crime statistics list?
    When a violent anti-Semite entered the Tree of Life 
synagogue in Pittsburgh during Shabbat morning services and 
murdered 11 worshippers in the most deadly attack on the Jewish 
community in American history, do we classify this explosion of 
violence as domestic terrorism or do we call it a hate crime 
and hope that it makes its way onto the FBI list?
    This is not merely a matter of semantics, but it is 
important to call things what they are. The innocent civilians 
murdered in these attacks were definitely the victims of 
terrorism.
    This question of classifying white supremacist violence has 
significant implications for resource allocation and the 
seriousness with which the government and the Nation address 
the problem. The FBI calls protecting the United States against 
terrorist attacks the Bureau's No. 1 priority. FBI policy 
instructs agents to open a parallel domestic terrorism 
investigation whenever a suspect in a hate crime has a nexus to 
any type of white supremacist extremist group, but often this 
step is never taken in practice.
    It is very important that we develop objective categories 
and definitions so our classification of events has coherence 
and integrity to it. The FBI called the December 2, 2015, 
attack on the Inland Regional Center in San Bernardino County, 
which killed 14 people, domestic terrorism; and definitely it 
was. The FBI called the June 12, 2016, Pulse nightclub mass 
shooting in Florida, which took the lives of 49 people, 
domestic terrorism; and definitely it was. But the FBI did not 
call the deadly white supremacist attacks and mass shooting at 
the Mother Emanuel AME Church in Charleston or at the Tree of 
Life synagogue domestic terrorism. It did not call the deadly 
violence that took place in Charlottesville domestic terrorism.
    But why not? Surely it cannot be because the perpetrators 
in San Bernardino County, Syed Rizwan Farook and Tashfeen 
Malik, were non-White Muslims; and that the perpetrator in 
Orlando, Florida, Omar Mateen, was a non-White Muslim; while 
the murderers in Charleston, Pittsburgh, and Charlottesville 
were Dylann Roof, Robert Gregory Bowers, and James Alex Fields, 
all White males.
    This kind of categorization would obviously violate our 
essential constitutional values. The racial or religious 
identity of the perpetrator cannot define the character of the 
crime. All of the victims of all of these crimes perished 
because the killers wanted to destroy lives based on their 
racism, homophobia, religious hatred, or other forms of group 
bias. Surely all of these victims died in terrorist violence.
    But then what explains the FBI labeling the San Bernardino 
attack domestic terrorism but not the attacks in Charleston, 
Pittsburgh, or Charlottesville?
    Whatever its cause, this dilution and disorientation of the 
concept of terrorism has important resource and budgetary 
implications. According to the Anti-Defamation League, Islamic 
extremism, which the FBI classifies as a form of international 
terrorism, was responsible for 23 percent of the extremist 
murders we saw in the U.S. from 2009 to 2018. Far-right 
extremism, or what the FBI at least theoretically classifies as 
domestic terrorism, was responsible for 73 percent of the 
fatalities caused by extremist violence during that same 
period. Yet the FBI devotes its resources almost exactly 
backward to these proportions.
    The FBI apparently spends 80 percent of its resources 
addressing international terrorism in this field and only 20 
percent addressing domestic terrorism. Why is that?
    Despite all of the problems causing the undercount of white 
supremacist violence, the data still shows us that hate crimes 
are sharply on the rise. Last year, the FBI reported over 7,000 
hate crime incidents in 2017, a 17 percent increase from the 
prior year and a 31 percent increase over 2014. During those 
same four years, hate crimes against African Americans rose by 
20 percent. They rose--anti-Semitic hate crimes rose by 35 
percent, anti-Latino hate crimes rose by 43 percent, and anti-
Muslim hate crimes rose by 44 percent.
    The Trump administration is not correctly naming the 
problem and it is not aggressively addressing it either. The 
Department of Homeland Security appears to be mismanaging the 
available resources. The administration dismantled DHS' 
infrastructure to counter violent extremism and white 
supremacy. Under the Obama Administration, the Department 
created an Office of Community Partnerships which administered 
grants to local community groups and partnered with law 
enforcement. Partnerships with local groups is considered by 
experts to be an extremely effective way to prevent 
radicalization, because many communities do not trust local law 
enforcement.
    The Trump administration rescinded the grants awarded to 
organizations working to counter white supremacist extremism. 
Recent news reports indicate that after this year, DHS will 
dismantle the grant program altogether. DHS also renamed the 
Office of Community Partnerships the Office of Terrorism 
Prevention Partnerships in August 2017, and renamed it again to 
Targeted Violence and Terrorism Prevention in April 2019. This 
reflects the shift away from prevention and toward only law 
enforcement.
    In the prior administration, this office had 16 full-time 
employees, 25 contractors, and a budget of $21 million, but 
this administration has reduced it to eight employees and a 
budget of $3 million.
    The Obama Administration's DHS established an interagency 
Countering Violent Extremism Task Force, which included the 
FBI, the National Counterterrorism Center, and the Departments 
of Justice, Education, and Health and Human Services. It was 
disbanded in this administration and now exists in name only.
    Recently, it was reported that the Department of Homeland 
Security's Office of Intelligence and Analysis disbanded a 
group of analysts focused on domestic terrorism, which reduced 
the number of analytic reports on white supremacy. Step by step 
DHS has simply dismantled the infrastructure necessary to 
counter the threat precisely at the time when the threat is 
growing to levels we have not seen in many, many years.
    Real Americans are being killed in their churches, in their 
mosques, and in their synagogues, in movie theaters, and in 
public places. Racial and religious mass killings inspired by 
white supremacy and other forms of tribal and religious hatred 
are a plague on the Earth, and the American society is 
suffering now along with the rest of the world.
    It is the primary goal of government under our social 
contract to make it safer than we would be in a State of war. 
Yet when it comes to white supremacist terror, the single 
greatest domestic terrorist threat to the American people we 
have, we are falling down on the job.
    As I mentioned at the outset, this will be only the first 
of several hearings on white supremacist terror. We will have 
the agencies here in June to address these same issues. In the 
meantime, I look forward to hearing from these expert witnesses 
today on what the FBI and Homeland Security can and should be 
doing to combat this pernicious terror in the land.
    And we will show you the video now, and then I'm going to 
turn it over to you, Mr. Roy. Forgive me for our technical 
difficulties.
    [Video shown.]
    Mr. Raskin. Okay. And I'll turn it over to the ranking 
member, Mr. Roy.
    Mr. Roy. Mrs. Bro, are you Okay?
    Well, I want to thank all the witnesses for taking the time 
to join us today and for their service, whether that has been 
in law enforcement or in the arena of ideas or whether it was 
in a mother who lost her daughter. I just want to appreciate 
you all taking the time to be here, and it is very much 
appreciated that you take the time to do that.
    Particularly, I do want to thank you, Mrs. Bro, for coming 
and continuing to share your perspective on the issues with 
speaking as a parent the courage to set aside the unimaginable 
loss of your daughter--I have a daughter and a son--at the 
hands of the forces of evil that we saw in display in this 
video.
    I am all too familiar with the surroundings of what I just 
saw in Charlottesville, whether it is the downtown mall, the 
last images we just saw.
    As a double alumnus of the University of Virginia, I spent 
a lot of my life in Charlottesville. I spent hours there in 
peace and tranquility, celebration, sports rallies down on the 
downtown mall, to restaurants. That's where I worked my first 
political campaign, literally two blocks from where we just saw 
that footage, in the House of Delegates race in Virginia.
    And then obviously in August 2017, I joined the Nation 
watching in horror as this traditionally peaceful pedestrian 
plaza turned to death and destruction on the heels of marchers 
spewing the racist venom that we just saw. I could not believe 
it.
    With tiki torches on the north side of the rotunda by Mr. 
Jefferson's statue, we saw a group of mostly or all White men 
marching as or with Neo-Nazis, Klansmen, chanting hateful 
things such as the Jews will not replace us, as we just saw, 
while carrying torches reminiscent of Nazi marches or the worst 
and most active days of the KKK.
    It was a far cry from a place I spent hundreds of hours of 
my life hanging out or passing by, living, myself, in one of 
those historical buildings we saw with the white columns that 
they were just walking by. I lived in one of those rooms built 
by Mr. Jefferson.
    It was a far cry from the intellectual give-and-take that 
resulted in growth and maturity in the arena of ideas, a 
university that was moving from a southern university that had 
become co-educational 20 years before I joined it. It was a far 
cry from my teammates on the University of Virginia golf team 
who came from around the world, Germany, Italy, Zimbabwe, where 
my dear friend, who has unfortunately since departed this Earth 
to be with our Heavenly Father, Lewis Chitengwa, helped me 
learn a little of what it was like for him, a young Black man 
growing up in Zimbabwe and becoming the first Black to win the 
South African Open in the mid 1990's, which was a fairly big 
deal, as you might imagine.
    To be clear, while they have a right to spew their vile 
notions, so long as it stops short of inciting violence, there 
is literally no defense for associating with these groups. 
There is no place for this in civil discourse. And there's a 
problem, be it relatively small or large, in the subject of 
this hearing and beyond with at least some groups of White 
individuals perpetuating racism. Some refer to it as the alt 
right. These terms are loaded, to be honest. I don't really 
like to adopt them because they're usually either created by 
the same jackasses spewing hate or often the groups whose 
existence is based on the continuation of identity politics.
    But the real problem--but this problem is real. For 
example, let's look at the attacks on David and Nancy French, 
two great thinkers with whom I do not always agree, and their 
family, from the article that I would like to be added to the 
record, without objection.
    Mr. Raskin. Without objection, it will be entered.
    Mr. Roy. Because of the alt-right--this is a quote from 
that article: Because of the alt-right's sick obsession with 
racial preservation, what has really raised the ire about David 
French is that he and his wife have an adopted daughter from 
Ethiopia. Among the many chilling things alt-righties sent him 
were photoshopped images of his daughter's face in gas 
chambers, with a smiling picture of the President in a Nazi 
uniform preparing to press a button and kill her, and vile 
messages laced with racial epithets asserting that his wife had 
slept with Black men while he was deployed in Iraq.
    She went on to add: In the past, leftwingers have also 
attacked the French family for having a Black adopted child, 
accusing them of not raising her with the right values since 
they are unapologetically conservative.
    What is happening to our Nation? Why are we at each others' 
throats, quite frankly, all too often literally?
    This hearing will perhaps allow us to explore the contours 
of how we investigate, manage, and stop the threats of violence 
from racist evildoers. And to be clear, that's what we're 
talking about, whatever they call themselves. But as we go 
through this, it is important that we recall the talking about 
how divided we are. Focusing so much of our time and energy on 
race and identity politics can itself be at least one of the 
forces at play in causing division.
    Of course we should address this issue, but how we do it 
matters. Casting blame and large nets of accusation beyond the 
locust of the hate only causes more people to retreat to 
entrenched corners.
    To be clear, a relatively conservative American of any 
race, who either partially or fully supports the President, for 
example, perhaps even wearing a MAGA hat, should not be labeled 
a racist for doing so. I remember getting some rather evil and 
disgusting things said my way because I was a supporter of 
Senator Cruz, as his former chief of staff. There are people in 
the world who say hateful things.
    But an American of a particular minority group who self-
identifies as a Conservative should not be the target of scorn 
or hate because some other, as I said before, jackasses who are 
hateful bigots wrongfully define themselves as alt-right, 
again, whatever that means on the political ideological 
spectrum. But all too often that happens and it is offensive 
and divisive.
    And it is also important that we keep in mind perspective. 
And I look forward to hearing from the witnesses, particularly 
those of you in law enforcement who have had a history of 
working on these kinds of things. I know the ADL report, for 
example, focuses on murders in 2017. And I believe that we're 
going to talk about 18 of 34 extremist murders are tied to the 
alt-right or similar in various articles that I've seen, and 
that is troubling. Of course, perspective is important when 
there were 17,000 murders in the United States in 2017. So we 
have got a resource issue. We have got State and local and 
Federal resources that we've got to manage.
    And it is important that we keep in mind the perspective, 
our focus, on extremism. It is true that domestically it is 
important to stop groups from targeting Americans no matter the 
group or the reason. As a former Federal prosecutor myself who 
wants to see bad guys behind bars and away from innocent 
Americans, it is also true that in light of 3,000 dead 
Americans on 9/11, in an attack on our own Pentagon in a downed 
plane, as we see continued presence of Islamic extremist forces 
abroad with al-Qaida continuing with the Taliban resurgent in 
Afghanistan, that national defense dictates a continued focus 
on international Islamic terrorism with vast networks in the 
United States, that these networks have proven that they exist 
and they are part of a large vast network designed to undermine 
our Nation and our allies.
    Those networks reach into our communities where we, and as 
my colleague here likely agrees, seek to protect American 
rights while allowing tools to stop terrorism.
    And that No. 2, regarding domestic terrorism, the American 
people are kind of funny about not wanting domestic 
surveillance and prefer to police Americans a little bit the 
old-fashioned way using the thousands of state, local, and 
Federal laws on the books to do that.
    I just want that perspective, I think, to be a part of what 
we discuss, and I look forward to hearing from each of you. And 
I cannot reiterate enough my thanks for your taking time to be 
here, and again, particularly, Mrs. Bro, for what you are 
doing. Thank you.
    Mr. Raskin. Mr. Roy, thank you very much.
    And I'm yielding a couple of minutes to my friend, Mr. 
Jordan from Ohio, who is the ranking member of the Oversight 
Committee.
    Mr. Jordan. Thank you, Mr. Chairman. I'll make it a couple 
of seconds or a few seconds, if I could.
    I want to associate myself with the ranking member's 
comments as well. And I appreciate you having this important 
hearing.
    Ms. Bro, thank you. Well, all our witnesses, but in 
particular, Ms. Bro, for you being here. We want to extend to 
you and your family our deepest sympathies. Your daughter, in 
the face of hate, stood for decency, civility, and made clear 
that bigotry has no place in our society. And tragically, she 
lost her life standing up for those values, those virtues, 
those important principles. And so we all appreciate you being 
here today carrying on her legacy.
    There is no place in America for hate. It must be condemned 
any time, any place it rears its ugly head. Scripture says 
this: The one who hates his brothers in the darkness and walks 
in the darkness and does not know where he is going because the 
darkness has blinded his eyes.
    Today's hearing is about shining light, shining light on 
all forms of hatred.
    And so again, I want to thank the witnesses who are going 
to testify, and the chairman and the ranking member for their 
comments, and for the time that we can focus on shining light 
on behavior that is just in no way acceptable, in no way should 
be tolerated.
    Mr. Raskin. Thank you so much, Mr. Jordan.
    I will now welcome our witnesses, beginning with Mrs. Bro. 
Susan Bro the president and board chair of the Heather Heyer 
Foundation, an organization that she founded in honor of her 
brave daughter, Heather Heyer, whose name now lives 
imperishably in the pantheon of American heroes who gave their 
lives fighting for equality for all and civil rights and civil 
liberties for all Americans. I never had the good fortune to 
meet your daughter, Mrs. Bro, but my sister lives in 
Charlottesville with her husband, their three kids, a lot of 
family there. And as you know, Charlottesville is a very 
intimate community. I know lots of people who knew Heather 
Heyer, and everyone says that she just had a heart of gold and 
was the most splendid, magnificent person. And so we thank you 
for standing up from the first days when this happened and 
making such a moving speech at the memorial service for Heather 
and for standing strong, for bringing us back together as a 
people, and for countering violence, white supremacy, and 
terrorism.
    Next will be George Selim, who is the senior vice president 
of programs for the Anti-Defamation League. Prior to joining 
ADL, Mr. Selim served in the administrations of Presidents 
Bush, Obama, and Trump. He was the founding director of the 
Department of Homeland Security's Office of Community 
Partnerships and the DHS' Countering Violent Extremism Task 
Force.
    Michael German is a fellow at the Brennan Center for 
Justice's Liberty and National Security program. He's a 16-year 
veteran of Federal law enforcement who served as a special 
agent for the FBI specializing in domestic terrorism.
    Omar Ricci is the chairperson for the Islamic Center of 
Southern California and former chairperson of the Muslim 
Political Action Committee. He also serves as a reserve officer 
for the Los Angeles Police Department.
    Roy Austin is a partner at Harris, Wiltshire, and Grannis, 
LLP. Earlier in his career he was a hate crimes prosecutor for 
the Department of Justice's Civil Rights Division and served as 
the deputy assistant general for the Division.
    And finally, Robby Soave is an associate editor at Reason 
Magazine, and serves on the D.C. advisory committee to the U.S. 
Commission on Civil Rights.
    I want to welcome all of you and thank you for coming, and 
I will begin by swearing you in.
    Please rise, if you would, and raise your right hand.
    Do you swear or affirm that the testimony you're about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    Thank you very much.
    Let the record show the witnesses all answered in the 
affirmative.
    Thank you. You may be seated.
    The microphones are sensitive, so please make sure they're 
on and please speak directly into them. Without objection, your 
full written Statements will be made part of record and you 
will be recognized for five minutes.
    With that, Ms. Bro, you are now recognized.

STATEMENT OF SUSAN BRO, PRESIDENT/BOARD CHAIR, HEATHER HEYER 
FOUNDATION

    Ms. Bro. Good morning--or good afternoon, pardon me. 
Chairman Raskin, Ranking Member Roy, and members of the 
committee, thank you for the opportunity to speak before you 
today.
    Ms. Bro. My name is Susan Bro. I'm the mother of Heather 
Heyer. Heather--I'm going to diverge a little bit from the 
written record here and just tell her story quickly very 
quickly.
    Heather was not a known activist in the community, but she 
worked as a paralegal in a bankruptcy firm, and she practiced 
justice, she practiced fairness, she practiced understanding 
people. She also worked as a bartender and a waitress, and she 
cared about people genuinely.
    Most of the girls in her office were people of color. And 
Heather had always believed in fairness and justice for people, 
so she stood in solidarity with them.
    She wasn't originally going to go down to join the 
protestors that day, but once she saw her friend Courtney's 
video of Friday night, she said, I have to go. Her best friend 
said, Don't go, you could die. And she said, I know, but I have 
to go. Of course, when we say those things, we don't really 
think we're going to.
    People came from 35 States that day to make a stand in 
Charlottesville. Some were told it was for freedom of speech, 
some were told it was to prevent the erosion of White rights. 
Some were told it was to take a stand against people of all 
colors and religions other than what they perceive to be 
Eurocentric values.
    A young man who had been consumed by hate for many years 
had been led astray by the Nazi beliefs that he saw online, and 
he made a point to practice those beliefs that day. He came 
from Ohio, slept in his car, and got up the next morning and 
joined the forces with shield, with his white polo and his 
khakis. He wore a helmet, and he yelled racial epithets and 
Jewish--and anti-Jewish and anti-Muslim and anti-everything 
else phrases that day.
    As everyone was leaving town after the Governor called for 
an emergency situation, James Fields followed another car down 
4th Street. The other car stopped, so he backed up. He sat at 
the top of the hill. And while he was sitting at the top of the 
hill--I don't know what he was doing, maybe he was looking at 
his GPS for a few seconds--the crowd that Heather was in that 
was made up of all kinds of people were celebrating the fact 
that the Nazis had left and they were going to the downtown 
mall to celebrate and gather forces, get some water, get some 
sandwiches, and he chose to accelerate forward.
    He had a very clear view of them as they came up 4th 
Street. There was no one around his car when he made that 
choice. He accelerated so fast that when he hit the white car 
in front of him, it instantly accelerated to 17 miles an hour. 
Heather's aorta was severed in four places. She spun through 
the air, leaving skin and blood on his windshield, smashing his 
front windshield. My daughter was probably dead by the time she 
hit the ground, but they didn't know that. They sent her to the 
emergency room. And from the emergency room, they tried to 
revive her, not knowing she had actually been dead for 20 
minutes before she got there.
    Now, parents lose their children all the time. I'm not 
special in that way. But because my daughter was a White girl, 
the whole world lost their mind and suddenly showed up on my 
doorstep. I've said, I'm not happy about giving my daughter up, 
but if I'm going to give her up, I'm going to make her death 
count. So I'm using the platform that has been given me because 
of my daughter's death to carry forward in her work.
    And I want to say to you, we have to do a better job of 
reporting hate crime, but we also have to do a better job of 
preventing hate crime. We have to find ways to reach these 
young people before they become radicalized. How we go about 
that I leave to greater minds. But I want you to think about my 
daughter and others who have died because of hate.
    Thank you.
    Mr. Raskin. Thank you for that very powerful and moving 
testimony, Ms. Bro. And thank you for coming to join us.
    Mr. Selim, you're recognized for five minutes.

STATEMENT OF GEORGE SELIM, SENIOR VICE PRESIDENT OF PROGRAMS, 
ANTI-DEFAMATION LEAGUE

    Mr. Selim. Thank you.
    Good afternoon, Mr. Chairman, Ranking Member Roy, 
distinguished members of this subcommittee. My name is George 
Selim. I serve as the senior vice president for programs at the 
ADL, the Anti-Defamation League. It is indeed an honor to 
appear before you today to address the issue of white supremacy 
and the threat it poses to all of our communities.
    Thank you to my fellow panelists for being here today as 
well. In particular, I wanted to thank Susan for sharing about 
her daughter Heather. I deeply admire the work you are doing, 
Susan. And at ADL and in communities across the country we 
stand by you in your fight against the hatred that took her 
life.
    Unfortunately, in the short time since the Unite the Right 
rally in Charlottesville in August 2017, white supremacist 
violence has continued to shatter many families across the 
country and across the globe. Families in Pittsburgh, in 
Christchurch, in Poway, and other places have been affected by 
this insidious form of violence. More can be done to counter 
this threat, and more must be done before the next inevitable 
tragedy.
    I have served at the Department of Homeland Security, the 
Department of Justice, and at the White House on the National 
Security Council. I watched the rise of ISIS and the full-
throated government response to counter it. Now, the rise of 
white supremacist terrorism poses a similarly serious threat. 
Yet instead of scaling up to meet the threat, the government 
seems to be scaling down. Fewer resources dedicated to 
preventing encountering extremism and little transparency and 
accountability with respect to how the government sees this 
threat and what it is specifically doing to counter it.
    The University of Maryland START Center found that from 9/
11 through 2017, 71 percent of Islamist-inspired extremists in 
the U.S. were interdicted in the planning phase of their 
terrorist plots. On the other hand, far-right extremists, the 
inverse is the case. Nearly 71 percent managed to successfully 
commit their acts of violence.
    And so the question before us, as you noted, Mr. Chairman, 
is why? It is paramount to counter extremism in all its forms. 
At this time today, white supremacist extremism warrants far 
greater attention than it currently receives. Our ADL data has 
shown that in the last year, of the 50 murders that were 
committed at the hands of extremists, all but one were linked 
to right-wing extremism, and 78 percent were tied to white 
supremacy specifically.
    Last year was the deadliest year for the Jewish community 
and the third highest on record for anti-Semitic incidents in 
the United States. This form of hate targets not only Jews, 
African Americans, Muslims, non-White immigrants, and the LGBTQ 
community as well. The data is clear: The white supremacist 
threat in the United States is at disturbingly high levels, and 
we must work together now to ensure that the worst is not yet 
to come.
    Like other forms of extremism, white supremacists seek to 
spread their ideology. Most believe in a conspiracy theory that 
the White race, as Susan noted, is in danger of extinction due 
to the rising number of non-Whites who are, quote, controlled 
and manipulated by Jews, and that their eminent action is 
needed, in their view, to, quote, save the White race. Then 
they convince other adherents that they must act immediately to 
counter that perceived threat, which manifests itself in the 
form of hate and violence.
    Not only do white supremacist extremists spread this 
propaganda through fliers and banners and events, but on the 
internet, on social media as well. Ranging from mainstream 
platforms like Gab and 8chan, where they are proselytizing and 
conspiring, and are less scrutinized, in many instances, of the 
public eye.
    Today's propaganda is tomorrow's hate and violence in our 
communities. More can and must be done to counter this threat 
and prevent it from getting worse. Instead of increasing 
intelligence into the domestic terrorist threats, the 
Department of Homeland Security has discontinued prevention 
grants entirely and has sharply reduced the number of terrorism 
prevention staff.
    The FBI in its own testimony last week admitted to having 
fewer resources to counter domestic terrorism than 
international terrorism. The National Counterterrorism Center 
does not currently view domestic terrorism as within its legal 
remit. These things need to change immediately. All of this, 
while white supremacists continue to proselytize and mobilize 
across the country and across the globe. More can be done and 
more must be done. ADL urges swift and comprehensive action to 
counter the threat of white supremacy specifically.
    A few things to list off, which we can get into more in the 
question and answer. Our first recommendation is we need to 
speak out much more strongly and decisively against white 
supremacy at all levels and all leadership at the Federal, 
State and local level. Second, to urgently consider legislative 
proposals designed to improve the government's ability to 
counter the threat. Three, to invest in prevention efforts to 
stop this threat from getting worse. Four, to improve and 
increase our data and reporting on hate crimes and bias-
motivated incidents across the United States. And last, to work 
with the technology sector to advance commonsense solutions to 
prevent the abuse on their platforms by white supremacists and 
their adherence.
    Mr. Raskin. Thank you very much, Mr. Selim.
    Mr. German, let me come to you.

STATEMENT OF MICHAEL GERMAN, FELLOW, BRENNAN CENTER FOR 
JUSTICE; OMAR RICCI, CHAIRPERSON, ISLAMIC CENTER OF SOUTHERN 
CALIFORNIA

    Mr. German. Chairman Raskin, Ranking Member Roy, and 
members of the subcommittee, thank you for inviting me to 
testify today.
    White supremacist violence is a persistent problem in the 
United States. And Congress has given the Justice Department 
powerful tools to address it, as the Brennan Center documented 
in our report ``Wrong Priorities on Fighting Terrorism.''
    I used these tools as an FBI undercover agent assigned to 
domestic terrorism investigations against white supremacists 
and militia groups planning acts of violence in the 1990's. 
Today, however, Justice Department policies deprioritize the 
identification, investigation, and prosecution of these violent 
crimes.
    When white supremacists commit deadly attacks, such as the 
recent mass shooting at a San Diego synagogue, their crimes fit 
the definitions of both domestic terrorism and hate crimes. The 
laws governing these crimes all carry substantial penalties, 
but their designation as domestic terrorism or hate crime has 
consequences.
    Terrorism investigations are the FBI's No. 1 priority and 
are well resourced. Civil rights violations like hate crimes 
rank fifth out eight priorities. More problematic, as a matter 
of policy, the Justice Department defers the vast majority of 
hate crime investigations to State and local law enforcement, 
without any Federal evaluation to determine if the perpetrators 
are part of a violent white supremacist group. State and local 
law enforcement are often ill-equipped or unwilling to properly 
respond to these crimes.
    As a result, and in spite of a congressional mandate to 
track bias crimes, the Justice Department doesn't know how many 
people white supremacists attack and kill each year, leaving 
intelligence analysts and policymakers in the dark about the 
scope of this violence.
    Victim surveys suggest there are approximately 230,000 
violent hate crimes per year. In 2017, the 12 percent of State 
and local agencies that acknowledged hate crimes occurring in 
their jurisdictions identified 7,175 incidents involving 8,800 
victims, including 990 aggravated assaults, 15 murders, and 23 
rapes.
    The Justice Department, in contrast, prosecutes only about 
25 hate crimes defendants each year. While white supremacist 
attacks represent just a tiny proportion of the violence that 
takes place in the United States, these crimes require specific 
attention because they pose a persistent threat to vulnerable 
communities, particularly communities of color, immigrants, 
LGBTQ people, women, the disabled, and religious minorities.
    These crimes are intended to threaten and intimidate entire 
communities, and they demand a government response that more 
effectively addresses this communal injury,
    The Justice Department officials have been calling for 
broad new domestic terrorism powers, but new laws are 
unnecessary and may cause harm. As the Justice Department 
continues to treat protests as terrorism, particularly in its 
monitoring of minority-led movements, like Native American 
water protectors and Black Lives Matter activists, falsely 
framed as Black identity extremists.
    Congress should ensure that counterterrorism resources are 
directed toward the most lethal threats. Seven U.S. Senators 
have recently complained that the FBI's reorganization of its 
domestic terrorism program categories seem intended to mask the 
scope of white supremacist violence and the resources it 
devotes to investigating it.
    Congress should require the Justice Department to collect 
accurate data about white supremacist violence and bias crimes. 
Further, it should explore new responses to hate crimes that 
are designed to ensure victimized communities are both safer 
and more resilient.
    First, minority communities are victims of many kinds of 
violence, including at the hands of law enforcement, and are 
often denied equal justice when they seek--equal protection 
when they seek justice. Half of the violent crime in the United 
States goes unsolved each year, including 40 percent of the 
homicides and 64 percent of the rapes. Black, Native American, 
and migrant victims are disproportionally represented in these 
unsolved crimes.
    The lack of equal protection leads to broken trust with law 
enforcement, as is reflected in the Justice Department's crime 
victim surveys, which indicate more than half of hate crime 
victimizations are not reported to police. And only 4 percent 
of reported hate crimes result in arrest.
    A comprehensive strategy to protect these communities from 
white supremacist violence must include measures to address 
these law enforcement disparities and reform police practices.
    Second, the current purely penal approach to white 
supremacist violence did little to assuage community fear, and 
so should the vision that these crime create. Research suggests 
that hate crimes victims overwhelmingly prefer educational 
programs and restorative justice responses that challenge 
underlying prejudice. Congress should study restorative justice 
methods and develop a plan to implement these practices 
whenever far-right terrorism or hate crimes occur to build a 
safer, more inclusive, and tolerant society.
    Thank you.
    Mr. Raskin. Thank you very much, Mr. German.
    Mr. Ricci.

STATEMENT OF OMAR RICCI, CHAIRMAN, ISLAMIC CENTER OF SOUTHERN 
CALIFORNIA

    Mr. Ricci. Thank you, Chairman Raskin.
    And first, on behalf of the Muslim Public Affairs Council 
and the Islamic Center of Southern California, we want to 
convey our condolences to you, Ms. Bro, and to your family. We 
pray that your daughter's soul is in the highest levels of 
heaven and in bliss.
    Chairman Raskin, Ranking Member Roy, and honorable members 
of the Oversight Committee on Civil Rights and Civil Liberties, 
my name is Omar Ricci. And I would like to thank you for the 
opportunity and the honor to testify on the impact of white 
supremacy on American Muslims.
    While I am here today to share my experiences as an 
American Muslim, as a chairperson of an Islamic center, and as 
a police officer. Prior to coming here, I also have sought the 
advice from others, particularly with my friends in the Jewish 
community, African American community, and the LGBT community.
    For whatever the path forward to deal with that current 
outbreak of white supremacy, we must first acknowledge, honor, 
and pay tribute to, and learn from the historic sacrifices of 
African Americans and Jewish Americans who have made for our 
Nation. We are standing on their shoulders.
    I am a proud police officer with the Los Angeles Police 
Department. However, to be clear, I am not testifying in that 
capacity, and the views shared in this testimony are mine 
alone.
    I am 50 years old, born in New York City to a Pakistani 
immigrant mother and a second generation Italian Irish father. 
I am married and I have four daughters, one of whom is 
accompanying me here today.
    For the past 10 years, it has been my incredible honor to 
be a reserve police officer with the LAPD, a police agency that 
sets a global model. And I have worked in various capacities, 
including basic street patrol, counterterrorism and special 
operations, and community engagement.
    In being a police officer, it is my desire to carry on a 
great tradition of our country, which is civic duty, and 
carrying out a mandate of my faith that Muslims should work to 
better the society they live in. In that role, and in the 
context of this hearing, I have responded to hate crimes 
against African Americans and have seen their devastating 
impact firsthand, the distraught, the pain, the emotional and 
physical turmoil, and more.
    In the immediate aftermath of the Tree of Life synagogue 
terrorist attack, I suited up to provide extra patrols around 
synagogues, knowing that the presence of a police car and a 
uniformed officer serves to both deter criminals and provide a 
feeling of security to the Jewish community.
    The same was done for mosques and the Muslim community in 
the aftermath of the Christchurch attacks. Synagogues and 
mosques are officially in the crosshairs of white supremacists.
    The 65-year-old mosque which I currently chair is a 
distinct American institution, prominent on the local and 
national scene. It is impossible to describe all that it does 
for Muslims and non-Muslims, but it does much. It feeds over 
200 needy, mostly non-Muslim senior citizens at our weekly food 
pantry. It serves as a polling place for voters. It actively 
participates with Mayor Eric Garcetti's office to try and 
figure solutions to the homeless. And finally, it is the 
institution that created the concept of an American Muslim 
identity that declares there is no incongruence between being a 
practicing Muslim and a patriotic American.
    The fact that I'm a police officer has not shielded me or 
my mosque from experiencing hate firsthand. Whether it is the 
arrest of an individual who threatened to kill one of our staff 
members and was found to have a cache of semiautomatic weapons 
and thousands of rounds of ammunition or receiving a piece of 
mail addressed to me personally with a feces-smeared page from 
the Quran with a hate note that I cannot read here in the oral 
setting but I've placed in my written testimony, there should 
be no doubt that hate is on the rise.
    This past weekend alone, a mosque was set ablaze in New 
Haven, Connecticut. In March, an arsonist set fire to a mosque 
in California, and that arsonist turned out to be the same 
terrorist who attacked and murdered at the Poway, California, 
synagogue.
    These are just the latest attacks. There are countless 
reports of Muslims having their hijabs ripped off their head. 
Bullying and taunting of Muslim children in public schools has 
been commonplace. And there has been a distinct and troubling 
rise and hate toward my community since the 2016 Presidential 
election cycle. One study found over 226 percent increase in 
hate crimes in counties where candidate Donald Trump held a 
rally.
    Respected Members of Congress, words matter. It is no 
secret that President Trump has an animus toward my faith by 
saying things like Islam hates us and by instituting his Muslim 
ban, and it is whipping up a mob mentality.
    Contrast those words to the more calm and sober Statements 
from President Bush after 9/11 that, quote: ``Those who feel 
like they can intimidate our fellow citizens to take out their 
anger don't represent the best of America. They represent the 
worst of humankind, and they should be ashamed of that kind of 
behavior.''
    Thank you for your time.
    Mr. Raskin. Thank you, Mr. Ricci.
    Mr. Austin.

STATEMENT OF ROY L. AUSTIN, PARTNER, HARRIS, WILTSHIRE & 
GRANNIS, LLP

    Mr. Austin. Chair Raskin and Ranking Member Roy and 
honorable members of this committee and, Mrs. Bro, thank you so 
much for your words today.
    As someone who has spent years prosecuting hate crimes, 
supervising those who prosecute hate crimes, and working on 
policy at the highest level to enhance hate crime prevention 
and reporting, I have very strong feelings about today's topic.
    Disappointingly, we do not have the slightest idea how many 
hate crimes there are in America, and we have never known. The 
numbers currently kept by the FBI are largely useless. The 
majority of States and the vast majority of law enforcement 
agencies either do not bother to report or do not bother to 
report accurate numbers.
    The best inference that can be drawn from the current data 
is that the environment created by the current Presidential 
administration, things have gotten worse. Hate crimes have 
increased.
    What is particularly shocking about this is that law 
enforcement agencies regularly speak about the importance of 
using data to perform better and keep this country safer. 
Increasingly, law enforcement agencies want to use artificial 
intelligence to engage in what they call predictive policing. 
But artificial intelligence with bad data is nothing more than 
junk science, also described as garbage in, garbage out.
    If we as a country were serious about using science and 
data to stop crime, particularly hate crimes, we would fix our 
data tomorrow. It's not that hard.
    The importance of collecting good data could hardly be 
overstated. While every crime is significant, the harm can be 
exponential when the subject targeted the victim based on hate. 
The pain or fear from hate crimes reaches a broader community. 
The act is an anathema to who we are as a Nation built on 
diversity.
    While we and every Black church in America mourn the murder 
of nine Black people in Emanuel AME in Charleston, South 
Carolina, the congregation of every Black church asked whether 
they might be next. While we and every synagogue in America 
mourn the murder of 11 Jewish people at the Tree of Life 
synagogue in Pittsburgh, Pennsylvania, the parishioners of 
every synagogue in America asks whether they might be next. And 
sadly, the parishioners of Chabad of Poway synagogue in San 
Diego, California, know that that fear is justified. And it is 
just one example of the horrific reach of hate crimes.
    Less than two weeks after 50 Muslims were murdered in New 
Zealand, someone tried to set fire to a mosque outside of San 
Diego, California, while people were inside. And the 
perpetrators vandalized that mosque, citing the New Zealand 
attack. Their fear is justified.
    What exacerbates our hate crime data problem is the fact 
that the Federal Government does not even publish its own hate 
crimes numbers. None of the DOJ components that work on hate 
crimes regularly publish data about their work in an easily 
accessible location. How can the Federal Government expect 
State and local law enforcement to publish data when it does 
not do so itself? It only requires a quick look at the FBI hate 
crime statistics to realize just how unhelpful they are.
    If you look, one might notice that the most up-to-date 
statistics are from 2017. We are now almost halfway through 
2019, and we still do not have national statistics for 2018.
    Second, there are approximately 18,000 law enforcement 
agencies in the United States, and around 2,000 agencies don't 
even bother to respond to the FBI, and they suffered no 
consequences for not doing so. And from the approximately 1,600 
agencies, those that responded, there were only approximately 
7,000 reported hate crime incidents. Of course, this is more 
than 1,000 more than there were in 2016 and more than 300 more 
than there were in 2015.
    Now, the same Department of Justice that publishes the 
Uniform Crime Report, where those numbers come, from also 
publishes the National Crime Victimization Survey. According to 
the NCVS, there were over 200,000 hate crimes in 2017. Of 
those, the victims said they reported over 100,000 to the 
police, and of those, more than 1,500 victimizations they said 
the police actually acknowledged to them that it was in fact a 
hate crime. How do we get from 200,000 to 7,000? Only through 
intentional irresponsibility.
    Eleven suggestions for how we could improve the current 
system. First, stop vilifying Muslims, LGBTQ individuals, and 
immigrants, and stop calling white supremacists fine people. 
This should be obvious, but sadly it needs to be said. Second, 
treat all crimes the same. It should not matter who the 
perpetrator is or who the victim is. Third, stop using bad data 
to make law enforcement policy and decisions. Fourth, encourage 
people to report. Fifth, instruct students in school about hate 
crimes, and teach kids how yesterday's hate-filled vandalism or 
Instagram rant becomes today's cross burning and becomes 
tomorrow's murder. Six, make reporting mandatory. Seven, 
actually audit the reports. Eight, publish the data quarterly. 
Nine, work with affinity groups to encourage reporting. Ten, 
get Federal agencies to report. Eleven, just plain better 
reports.
    We cannot fully understand hate crimes without good data. 
We will also not be able to determine what works and does not 
work to end hate crimes if we do not improve the data.
    Thank you very much.
    Mr. Raskin. Mr. Austin, thank you very much. Thank you.
    And, Mr. Soave.

STATEMENT OF ROBBY SOAVE, ASSOCIATE EDITOR, REASON MAGAZINE

    Mr. Soave. Thank you, Mr. Chairman, Ranking Member Roy, and 
committee members, for inviting me to speak. And thank you for 
convening a hearing on such an important subject.
    I am humbled by this opportunity, not just to testify, but 
to learn from my fellow panelists. And thank you, Ms. Bro, for 
your courageous testimony.
    My name is Robby Soave. I'm an editor at a magazine called 
Reason, and a member of the D.C. advisory committee to the U.S. 
Commission on Civil Rights. I am also the author of a book 
titled ``Panic Attack: Young Radicals in the Age of Trump,'' 
which is the culmination of years of research on the tactics 
and goals of various political activist groups that have 
emerged on the right and the left. It includes a chapter about 
the rise of the white nationalist fringe group that we know as 
the alt-right.
    As part of my research, I have interviewed alt-right 
activists and thought leaders, including their nominal leader, 
Richard Spencer, as part of an attempt to better understand 
where these ideas come from and how to combat them.
    It is an indisputable fact that white nationalism and white 
supremacy are pernicious ideologies with a long history of 
terrorizing communities of color in the United States and that 
their current manifestation in the form of the alt-right should 
be confronted and condemned. However, as we begin our 
discussion today, I would urge us not to overestimate the 
current threat posed by white nationalism.
    It is all too easy to give them more attention than they 
deserve, because the sentiments they express are so abhorrent. 
But these violent extremists constitute a fringe group. While 
they are loud online, they are not numerous. With rare 
exception, their events are sparsely attended. And when they do 
organize, they are often vastly outnumbered by counter-
protesters. Their visibility has decreased since the events in 
Charlottesville. Indeed, when I interviewed Richard Spencer for 
my book, he admitted that he didn't think anything like the 
Unite the Right rally would happen again in the foreseeable 
future.
    While it's very important to be aware that there is still 
hate and violence in this country, some policymakers and media 
figures do cite the hate crime statistics that several of the 
people to my right talked about as evidence that hate crimes 
are certainly definitively rising.
    The FBI reported, as you've heard, 7,175 crimes in 2017, 
versus 6,121 crimes in 2016, which represents a 17 percent 
increase. But it is important to note that nearly 1,000 
additional municipalities submitted data to the Federal 
Government in 2017. This means the perceived increase in hate 
could partly be explained by the fact that we have more data.
    As agencies involved in submitting data become more 
concerned with hate crimes, more knowledgeable about them, and 
more responsible about touting them, the numbers could appear 
to be going up. This wouldn't mean that the problem is getting 
worse, just that we were vastly undercounting them previously.
    Bear in mind that the total number of hate crimes tallied 
by the FBI going back to the year 1996 was 8,759 from 11,000 
agencies. In 2017, with 16,000 agencies reporting, the total 
was actually lower. The overwhelming majority of municipalities 
reported zero hate crimes, as you've heard.
    Most incidents were classified as anti-Black or anti-
Jewish. Anti-Semitism is a foundational belief of the white 
nationalists and of the alt-right. And a recent uptick in anti-
Jewish hate should not be surprising. Even here, though, the 
numbers do not necessarily support the idea of what I would 
call a full-blown crisis. According even to the ADL's own 
research, a 57 percent spike in anti-Semitic incidents took 
place in 2017, but this was partly due to a series of bomb 
threats made against Jewish institutions by a single troubled 
teenager who lived in Israel. Anti-Semitic violence had, in 
fact, declined by 47 percent.
    And while the following year--the past year has included 
some truly despicable acts of anti-Semitic violence, 
specifically the horrifying Tree of Life shooting in which a 
white nationalist murdered 11 Jewish worshipers, the total 
number of anti-Semitic incidents in 2018 was 5 percent lower.
    Although violent acts disproportionately draw our 
attention, in reality, the alt-right's most prevalent and 
widespread form of abuse is online harassment, primarily on 
social media platforms like Facebook and Twitter. Hateful 
speech, disturbing though it may be, is in most circumstances, 
not all, but most, protected by the First Amendment. And thus, 
it is not the government's role to police this behavior, but 
rather a decision that rests with the social media companies 
themselves.
    Law enforcement can and should take seriously--should take 
action against threats of violence and of course violent acts 
such as those we witnessed in Charlottesville.
    My goal in bringing a degree of nuance to these facts and 
figures is not to minimize the very real harm extremists have 
caused but to discourage the kind of alarmism that can prompt 
overreaction on the part of authorities. Law enforcement should 
receive the resources they need to combat violence, threats, 
and property defacement, whether or not these crimes are 
motivated by hate or impugn a specific group.
    Thank you.
    Mr. Raskin. Mr. Soave, thank you very much.
    Thank you all for your testimony.
    I'm going to begin and do my questions, and then I will 
turn it over to Mr. Roy. I think votes are going to be called 
in about 10 minutes, so we'll have to break so the members can 
go and vote on the floor. We'll come back; we'll resume our 
hearing. We'll make sure that all the members who are here have 
an opportunity to ask questions.
    Let's see. Mr. Ricci, let me start with you.
    President Trump was asked if he believes White nationalism 
is a rising threat, and he said, ``I don't really. I think it's 
a small group of people that have very serious problems.''
    The logic of that, essentially, is that this is basically 
just a law enforcement problem, and we should put police on it 
to go after this small group of troubled people. And that's in 
line with what the administration has been doing in terms of 
defunding the efforts to try to reach out to people who have 
been pulled into extremist White supremacist groups.
    I know one group called Life After Hate, which actually 
tries to engage with young people who are marginalized and 
vulnerable and get drawn into these groups the way that they 
might get drawn into a religious cult or something like that.
    Do you agree with the President that, one, this is not a 
rising threat, and, two, essentially that we should just treat 
this as a law enforcement problem and not a question of public 
education and prevention?
    Mr. Ricci. Thank you for your question.
    I obviously think that it is a rising threat against not 
only Muslims but also Jews and African Americans and a rising 
threat for the country. The characterization of it by President 
Trump is one that we do not agree with, but it is something 
that we, as a community, are seeing a rise of. As a matter of 
fact, there are more attacks and more threats against at least 
our community, as borne out by a research study from Pew, than 
after 9/11.
    Mr. Raskin. Let's see. When there is a violent attack, 
something like Charlottesville, the FBI has got two branches 
that might be involved: the Counterterrorism Division, which 
handles terror, and the Criminal Investigative Division, which 
covers hate crimes. So these are two different ways that an 
investigation might go.
    Mr. German, let me ask you, when there is an incident like 
Charlottesville, how does the FBI decide which side of the 
house will handle it, the terrorism side or the hate crime 
side? And how should that decision be made?
    Mr. German. Thank you for the question.
    Unfortunately, it seems that they make that decision fairly 
arbitrarily. They don't seem to have a strategy that makes it 
very clear. There is an older civil rights policy that 
suggests, if an agent opens a hate crimes investigation that 
has any nexus to a White supremacist group, they should also 
open a parallel domestic terrorism case. But I've noted in 
recent attacks that the offices and their leadership are very 
direct about saying they're opening civil rights investigations 
and not calling them terrorism investigations.
    So it's unclear whether that policy has changed since it 
was published through some ACLU FOIAs several years ago or 
whether they are continuing to do that. But it matters very 
much, because the scope of a domestic terrorism investigation 
is looking for people who either assisted with the attack or 
would continue to exist to continue the threat, where a civil 
rights hate crime investigation tends to be narrowly focused on 
proving the actual crime that occurred.
    Mr. Raskin. To followup on that, Mr. Austin, let me ask 
you, do you think it is important to label the mass murders 
that took place in Charleston or in Pittsburgh at the Tree of 
Life synagogue as forms of domestic terrorism? And what effect 
should that have on Department of Justice investigation?
    Mr. Austin. Thank you.
    I think it's important to label it the same across the 
board regardless of who the victim is and who the perpetrator 
is. I think that you have to have consistent labeling. Whether 
you call it domestic terrorism or you call it a hate crime, as 
long as you're providing the resources to get the job done, to 
determine the perpetrator, to stop the hurt that follows from 
it, I think that is the most important thing.
    If we are going to give more money to--if it's called 
domestic terrorism, then let's call it domestic terrorism. If 
we're going to give it--if we call it hate crimes, then let's 
call it hate crimes. I don't care what we call it, but we need 
to stop it.
    Mr. Raskin. Very good.
    And, Mr. Selim, let me come to you. On the question of 
information-sharing at different levels of government, The New 
York Times reported that, when Richard Spencer, whose alt-right 
movement sparked the Charlottesville events, was scheduled to 
appear in Florida, local police in Gainesville tried to learn 
all that they could about the movement, but they were not able 
to get anything from the FBI or from the Department of Homeland 
Security. It was, as one police lieutenant put it, a Bermuda 
Triangle of intelligence.
    Why would this be? And does this create a problem?
    Mr. Selim. Mr. Chairman, thank you for that question.
    Part of the dynamic here that's at play is that a lot of 
the issues at play here are, in fact, First Amendment-protected 
activity. And ADL continues to be a staunch defender of the 
First Amendment. And so law enforcement has many restrictions 
at the Federal, State, and local level when it comes to 
collecting and retaining information.
    That's why nongovernmental organizations like the ADL 
continue to lead the way on collecting and retaining this 
information and, in many cases, providing it to Federal, State, 
and local law enforcement that leads to open investigations and 
ultimately successful prosecutions. That's a loophole that I 
think needs to get looked at further.
    Mr. Raskin. Very good.
    Mr. Roy, I'm going to come to you now for your questioning.
    Okay. I recognize the gentlewoman from West Virginia for 
five minutes.
    Mrs. Miller. Thank you, Mr. Chairman.
    And thank you all for being here today.
    Mrs. Bro, I am very sorry. My heart, as a mother and 
grandmother, goes out to you, as probably everyone in this room 
does. We all share you in our prayers.
    I agree with my colleagues; we must condemn White 
supremacy, hate crimes, and domestic terrorism on every level. 
Catastrophic events like what happened at the Boston bombing, 
the rally in Charlottesville, the Chabod Synagogue, the Emanuel 
AME Church, all of these things are abhorrent to me. There is 
no place in our society for such actions. And this isn't just 
going on in the United States; this is going on all over the 
world.
    And I'm going to go out of my comfort zone just a little 
bit and probably off topic a little bit, but if you look at 
everyone in this room, like I am right now, what a beautiful 
composite of human beings. We are all human beings. We may look 
a little different. We may have blond hair, black hair, no 
hair, curly hair, blue eyes, brown eyes. We are all human 
beings. And the moment somebody points a finger at somebody 
else, there are four fingers pointing back at yourself. And 
that's all I've got to say.
    Mr. Selim, how can we--is it possible that we can use data 
to equip and empower our State and our local governments to 
stop these terrible attacks? Is it possible?
    Mr. Selim. Congresswoman, thank you for that question.
    It is, in fact, a possibility. But as many of my co-
panelists have noted, the FBI and the Federal Government's own 
data is flawed on a number of levels. Making good policy starts 
with good data and good information.
    It is, in fact, possible to get better policy, better 
programmatic results and incentivize and resource State and 
local law enforcement better specifically on hate crimes and 
bias-based reporting of incidents so it can get better and the 
Federal Government can do a better job with incentivizing and 
resourcing reporting on hate crimes.
    Mrs. Miller. Thank you.
    Mr. Soave, can you speak to some of the shortfalls that 
you're seeing on the available data for these hate crimes?
    Mr. Soave. Sure. As I talked about in my opening remarks 
and so many people have noted, the FBI data really is 
incomplete and doesn't actually give us a good picture of how 
things have changed from one year to another.
    I mean, I think it really is the case that, as we become 
more aware of hate in our communities, we're paying attention 
to it, it's going to be reported, we're having national 
conversations about it. I just want to counsel that it could 
look like it's getting worse just because we're paying more 
attention to it.
    Similarly--and maybe I depart from some of the panelists on 
this--I'm a little less confident that better data will yield 
some positive policy result, because I haven't seen any 
evidence or any studies suggesting that the hate crime 
designations actually do help law enforcement catch more of 
these people or put more of them away or lead to any decrease 
in these kinds of crimes.
    Again, you know, we're talking about things that are crimes 
regardless of whether they're designated as hate crimes. Murder 
is illegal. Assaults, property defacement, all of these things 
are crimes regardless of whether they're tallied as having 
been--the person doing it was doing it for some reason that we 
additionally criminalize, if you take my meaning.
    Mrs. Miller. And, Mr. Austin, I agree with you. I don't 
care what we call it; it's got to stop.
    Thank you. I yield back my time.
    Mr. Raskin. Thank you.
    The gentlelady yields back.
    I come now to the gentlewoman from the 12th District of New 
York, Mrs. Maloney.
    Mrs. Maloney. Thank you, thank you, Mr. Chairman.
    And, first, thank you, Mrs. Bro, for your very powerful 
testimony. I am sorry about the tragedy that brought you here 
today, but I hope that your testimony will serve as a wake-up 
call to everyone who hears it.
    I am interested in hearing from you, Mrs. Bro, about how 
your perspective has changed since you lost your daughter. You 
have been thrust into the leadership, really, of the fight 
against hate crimes in the most tragic of ways. Do you feel 
like your insight into the problem of hate crimes has changed 
since this tragedy?
    Ms. Bro. I don't think that my perspective has changed. I 
think that my platform has changed. I was a public school 
teacher, working with primarily fourth-and fifth-graders. I 
made that a priority in my classroom. I made sure that kids got 
to know kids that didn't look like them. I made sure that kids 
got to understand how their words had impact on other students. 
So, in some ways, my audience is older, my audience is bigger, 
but I'm still saying the same things.
    I certainly have taken more pains to study, to show myself 
approved. I don't believe in BS'ing. I believe in either 
speaking truth or don't speak. So I have spent a great deal 
more time trying to study what's going on, trying to be aware, 
trying to think about it. Frankly, my husband can tell you that 
I'm up till midnight and later a lot of nights studying, 
learning, researching, thinking about, writing. So, in that 
way, my life has changed.
    Mrs. Maloney. What would you say to those who may not 
understand the scope of the challenge? What would you say to 
those members of our society who may not be confronting it with 
the same passion and commitment that you have? And they should 
have it. What would you say to get them off the sidelines and 
into the fight against hate crimes?
    Ms. Bro. Well, this is actually what I mainly do in life, 
is go around talking to people and saying, you have to step up 
and you have to step out.
    I say to them, get your head out of the sand. The fact that 
you can be unaware is definitely a form of White privilege. 
It's the key tenet of White privilege, is that we don't have to 
see it. We have to choose to see it. And as long as America 
tries to be nonracist, we're not going to accomplish anything. 
We have to be anti-racist. We have to step up and be aware of 
the problems that are around us.
    And when I say ``racist,'' I'm talking about religion, I'm 
talking about a variety of differences, sexual preference. But 
it encompasses being aware of each other as people, taking time 
to listen to one another, taking time to talk to one another, 
and actually thinking about what we have in common, finding 
points of connection. And from there, we can work through our 
differences.
    As far as the reporting issue, I think I find myself 
somewhere between all of these. Because I know there's an 
increased problem. A doctor cannot diagnose a patient without 
knowing the full set of symptoms. I don't see how we're 
expecting you, as Congress Members, to know how to prescribe 
allocations of personnel and money without knowing the full set 
of symptoms.
    So I think that we have to find some way to get a full look 
at this. Is it closer to what the gentleman from Reason 
Magazine says, or is it closer to what these other gentlemen 
are saying? We don't know.
    Mrs. Maloney. And, Mr. Austin, you talked about the need to 
get accurate data. And we heard from the Anti-Defamation League 
that the numbers are up not only for violence against Jews but 
African Americans, LGBTQ community. It's up in my district and, 
I assume, all across the country.
    What are your recommendations for DHS to collect accurate 
data for its enforcement?
    Mr. Austin. Yes, and let me just be clear: They definitely 
are up. I would disagree with Mr. Soave on this point, because 
if you look at the actual numbers of population that is covered 
by these law enforcement agencies and you compare that to the 
number of hate crimes, year after year going into this 
administration, the numbers are clearly up.
    As far as recommendations, I mean, the first thing is 
Congress can mandate, if you are going to spend Federal dollars 
as a law enforcement agency or you're going to get Federal--
you're going to get law enforcement equipment, you must provide 
us with good and proper and accurate numbers.
    It's not that hard. You tie your funding to so many other 
things. Tell them that, on their data, if you want that tank, 
then you have to provide us with data telling us how many 
people in your community are victims of hate crimes.
    Mrs. Maloney. My time is up.
    Mr. Raskin. Thank you.
    I come now to the gentleman from North Carolina, Mr. 
Meadows.
    Mr. Meadows. Thank you, Mr. Chairman.
    Thank you, Ranking Member Roy.
    Thank each of you for your testimony.
    Mr. Austin, what I would like to do is come back really to 
you in terms of these numbers. It seems like that should be a 
pretty easy thing to fix. You know, candidly, one thing that 
Congress should be able to do is actually get good reporting.
    So here's what I would ask from you, Mr. Austin, and you, 
Mr. German, if you would, is report back to this committee with 
three recommendations of maybe how we--what are the categories 
and specifically how we would define those categories.
    Because I think, Mr. Austin, in some of your testimony, 
where you talked about, well, it could be in domestic terrorism 
or in a civil rights case, and yet many--when you go to 
classify it in a particular category, it could go in either 
one.
    So I think if the two of you are willing to do that--I see 
Mr. German's shaking his head, nodding, Mr. Austin. And, with 
that, we'll look for that information, and I'm going to yield 
the balance of my time to Mr. Roy.
    Mr. Roy. I thank the gentleman from North Carolina. I would 
echo some of the points that he was just making and inquiring 
of you, Mr. Austin, Mr. German, and, frankly, all of you who 
have expertise in the matter.
    And I would add to that, I mean, I could kind of nerd out 
on the data side of this, as one of those degrees that I got in 
Charlottesville was a master's in management information 
systems. I have a degree in finance, an MIS, and somehow I'm 
sitting here when I could be out in the marketplace, you know? 
But, you know, those are the kinds of things--I think we need 
to have that kind of data.
    But I would say this. One of the things and the complaints 
I hear from local law enforcement in Texas 21, in the Hill 
country--Kerrville, Boerne, and Austin-San Antonio--they often 
don't even apply for grants anymore because it's too 
cumbersome. There's too much stuff, too many hoops to go 
through.
    And so I do think, at some point--this is just a side note 
for another day and another hearing, but on this kind of point, 
this is why we run into these kind of hurdles. Like, we kind of 
go, ``Oh, why aren't we getting this data?'' Well, he goes, 
``There's too much crud for me to go through to do it. I've got 
to go do my job.'' So I do think there's some things like that 
we need to pay attention to.
    But I would ask on that front--and to your point, Mr. 
Austin, there's a little bit of disagreement between you and 
Mr. Soave about the nature of the increase. And so I would ask 
you to maybe expand on that a little bit, and then you respond, 
Mr. Soave, obviously, in a civil back-and-forth, to give a 
little nature about your views and perspectives on the 
increase.
    Mr. Austin. So Mr. Soave is right that the number of law 
enforcement agencies that participated has grown over time. But 
if you look at the next number that the FBI has in its UCR 
report, it's the population covered. And if you divide the 
number of hate crimes by the population covered, as opposed to 
by the number of law enforcement agencies, you will see that 
from 2013 to 2017, each and every year, there is actually an 
uptick in the number of hate crimes.
    And so, you know, by agency reporting--by population, we 
are, in fact, seeing an uptick in hate crimes. Now, again----
    Mr. Roy. What's the relative level of that uptick?
    Mr. Austin. It is--you know, what I found is approximately 
about a hundredth of a percent. I mean, it's pretty small. I 
mean, but we're talking about a population of 306 million, and 
we're talking about a hate crime number that, at least 
according to the FBI, is 7,000.
    Mr. Roy. So, statistically--and I'm not--I mean, this is 
important. And even if it's--look, one is too many, okay? Let's 
just start with that, okay? But we all have to allocate 
resources and figure out what to do.
    And so, on this point, what I'm hearing is it's relatively 
flat, then, is what I'm hearing. If you're talking about, like, 
a hundredth of a percent, I mean, we're talking about 
statistically flat.
    Mr. Austin. Statistically flat, but I think you could 
probably say the same about all crime. I mean, you know, if 
we're talking about numbers of 7,000 to 200,000, we could call 
it all statistically flat.
    Mr. Roy. Mr. German wants to get in on this, and then, Mr. 
Soave, if you'd jump in.
    Mr. German?
    Mr. German. And I would just say that we're still talking 
about a relatively small proportion of police agencies that 
actually report hate crimes.
    Mr. Roy. Sure.
    Mr. German. It's not that the other 87, 88 percent are 
reporting no crimes; they're not reporting. That's a very 
different thing. As the Justice Department has acknowledged, 
just because a region does not send us reports doesn't mean 
there aren't crimes happening there that fall under this 
category.
    Mr. Roy. Mr. Soave, anything to add on this point?
    Mr. Soave. Well, I largely agree with the position you were 
sort of talked into just there. So there might be a slight 
uptick or fluctuation from one year to the next. If you look in 
the long term, we're talking about it's up slightly one year, 
it's down slightly the next year. You know, these are small 
numbers.
    And there could've been--you know, the municipalities that 
are reporting zero in previous years might have missed crimes 
in previous years that they should've reported, and then 
previous-year totals would be higher.
    The overall crime rate has also, I think, been largely flat 
over this later term. But if you go all the way back to, for 
instance, I believe 1992 is when you start to see a massive--so 
there has been a massive decrease in virtually all--in murder, 
assaults from 1992. That was the high point in crime. I believe 
something like gun homicide has decreased, like, 50 percent 
from 1992 to probably 2010, something like that.
    Mr. Roy. So let me ask one more question here in my 
remaining portion of this time, to any panelist who wants to 
jump in here.
    It strikes me--and I'm sure some of my colleagues, maybe 
particularly my colleague from Brooklyn, would agree--that one 
of the things we see out here online, right, is what we 
colloquially refer to as trolls. And I just picture some, you 
know, kind of kid sitting in his, you know, parents' basement 
just, you know, writing out and spewing out a bunch of hate.
    And trying to see how much the social media world is 
impacting what we're talking about and how much that is 
elevating the heightened, you know, existence of these hate 
groups and alt-right groups.
    Mr. Soave, do you want to jump in on that? And anybody else 
jump in, and then----
    Mr. Soave. I would just say on that that perhaps we are 
seeing an increase, because these formats for expressing these 
views, I mean, literally did not exist if you're going back a 
decade previously. There was no Twitter, no Facebook to engage 
in the kind of harassment that alt-right people do.
    But, of course, we're talking now, in the majority of 
cases, about protected speech that the government is rightly 
kind of prevented from taking too aggressive steps to stop it.
    Mr. German. And I would just add that it's really important 
that we be very careful about what we're talking about so that 
we're not including somebody saying something you don't like 
and equating that with murdering somebody, right?
    I think Congress passed a definition of domestic terrorism 
that's facially neutral: illegal acts that endanger human life 
that are intended to intimidate or coerce a civilian 
population. A lot of hate crimes fall into that definition, 
particularly the most serious ones that involve acts that are 
dangerous to human life. So those are the ones that should be 
prioritized at the Federal level.
    And the problem is, that's not how the Justice Department 
looks at it. You know, there are a number of States that don't 
have hate crime laws. There are a number of States that don't 
have hate crime laws that prosecutors can effectively put to 
use. So just deferring all of these crimes to States and locals 
that don't have the tools to address them is part of the 
problem, which is why we don't have accurate numbers, because 
they don't even have the tools.
    Mr. Raskin. Okay. Thank you for that clarifying point.
    The gentleman's time has expired.
    I'm going to come to the gentleman from Missouri's First 
District, Mr. Clay.
    Mr. Clay. Thank you, Mr. Chairman, and thank the ranking 
member, also, for holding this hearing.
    You know, following reports that a suspect has been 
arrested and charged in connection to three recent church fires 
in Louisiana, I will State the obvious: Sinister efforts are 
still amiss to create fear, harm, and intimidate African 
Americans.
    These church arsons resurrect painful memories of historic 
attempts to intimidate African Americans by targeting houses of 
worship. From the Mother Emanuel nine killed in Charleston to 
the four little girls killed in Birmingham, Alabama, in 1963 at 
the 16th Street Baptist Church, attacks on the Black church 
figure prominently in the efforts by White supremacists to 
promote racial violence in this country. I am hopeful that 
Federal law enforcement officials will take seriously the hate 
and racial animus that caused the targeting of these three 
peaceful places of worship.
    Mr. Chairman, we can brand someone a terrorist easily when 
they have a different skin color or don't speak English or are 
from another country. But if it is your mission as a White 
nationalist here in America to spread fear, hate, and encourage 
the elimination of a particular group of people, then we also 
have to call them what they are: domestic terrorists, period.
    Additionally, Mr. Chairman, I would like to introduce into 
the hearing record a Statement from the Lawyers' Committee for 
Civil Rights Under the Law on our hearing topic, confronting 
White supremacy.
    The Lawyers' Committee is a civil rights organization 
founded in 1963. They are not new to the fight against hate and 
for racial justice on behalf of African Americans and other 
minorities.
    Mr. Raskin. Without objection, that will be entered into 
the record.
    Mr. Clay. Thank you, Mr. Chairman.
    And I have a few questions.
    Mr. German, do you believe Federal law enforcement dollars 
and resources are properly allocated to combat the rise and 
resurgence of White supremacy terrorism groups?
    Mr. German. No, I don't.
    Mr. Clay. And why is that? Is that because of the culture 
inside of the FBI or Justice Department?
    Mr. German. I think it's a complicated answer, and I think 
that that's going to take some real unpacking. But I think it's 
a matter of policy.
    These policies the Justice Department could change 
tomorrow. You know, the idea that they're coming asking for new 
authorities is troubling to me, because when I look at how 
they're most aggressively using these authorities, it's not to 
target White supremacists. And, in fact, they ignore most of 
the White supremacist violence. So it's a change in policy that 
needs to happen.
    Mr. Clay. Right. And it's a culture too, because we know 
the history of how they targeted Dr. King, how they also 
instituted COINTEL probe and other ways to harass Black people.
    Mr. German. And keep in mind, the FBI is still 
overwhelmingly White and overwhelmingly male. So you have a 
very high percentage of White males who are making these 
decisions, both in the investigations and in policy.
    Mr. Clay. Thank you for that response.
    And, Mr. Austin, do you agree that prosecuting and holding 
the perpetrators of racially motivated crimes accountable is 
critical to our Nation's efforts to combat the rise of White 
nationalist terrorism?
    Mr. Austin. I absolutely do.
    But I also think that sometimes our criminal justice 
solutions, regardless of what area we're talking about, are 
inadequate. And we have to start talking about our schools, and 
we have to start talking about our other institutions, because 
criminal justice alone has not stopped crime.
    Mr. Clay. Let me ask Mr. Ricci, do you believe social media 
entities are doing enough to police the spread of hateful and 
dangerous racist content?
    Mr. Ricci. Thank you for the question, Congressman.
    I'm not an expert in social media, but I would tell you 
there has been an extraordinary increase of hate social media 
directed toward the Muslim community as well as the Jewish 
community and others.
    And it is something that we've got to work with the social 
media companies, and I'm proud to say the Muslim Public Affairs 
Council is working with the likes of Google and Facebook along 
those lines. And so I think, yes, more can be done, more should 
be done.
    Mr. Clay. And I thank you all for your responses.
    Mr. Chairman, I yield back.
    Mr. Raskin. Okay. Thank you very much.
    And we're going to go quickly to Ms. Wasserman Schultz. 
After that, we are going to break.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman.
    I want to begin by just going through, Mr. Selim, the Anti-
Defamation League Center for Extremism audit of anti-Semitic 
incidents in 2018, which found that nearly 1,900 reported 
incidents of harassment, vandalism, and assault occurred 
against Jewish Americans just last year. That's the third-
highest number, as I think you mentioned in your testimony, of 
anti-Semitic incidents since ADL began tracking anti-Semitic 
incidents four decades ago.
    Seventy-six verified incidents of anti-Semitism occurred in 
my home State of Florida, the majority of those in south 
Florida, where I live. In Broward County, my home county, 
images of a student at a high school performing the Nazi salute 
on a school's Jewish student union sign circulated on Snapchat. 
I know the pain of this personally, because Nazi-obsessed 
trolls have viciously taunted my own children on social media.
    So my question to you, Mr. Selim, is: Do you believe the 
administration is taking anti-Semitic threats and incidents, 
actually, or any of these types of incidents seriously enough? 
And what actions, either legislative or otherwise, does the 
Federal Government need to take to seriously address the rise 
in anti-Semitism, anti-Semitic incidents, and other bigoted 
acts of oppression?
    Mr. Selim. Congresswoman, thank you for that question. And 
I'm sorry to hear that this has happened to you and your 
family, but, unfortunately, you are not alone.
    Ms. Wasserman Schultz. I know.
    Mr. Selim. Communities across the country, families across 
the country have been stricken by the scourge of anti-Semitism. 
And I can assure you that the team at ADL works daily to try to 
address these threats.
    So you pointed to some of the statistics. Let me just add 
one or two more. Last year, the ADL counted over 1,800 anti-
Semitic incidents across the United States. Those aren't things 
that appeared on websites or comments somewhere on a website 
somewhere. Those were actual incidents that happened somewhere 
in the country.
    So when it comes to your question on what more can be done 
and who needs to say what, leaders at all levels need to stand 
up and speak out much more forcefully on this issue. Anti-
Semitism is not something that's a Democrat or Republican 
issue. It's a people issue. It's a human issue. And leaders at 
all levels, whether you're the President of the United States 
or you're the president of the PTA in the district that you 
represent, need to stand up and forcefully speak out against 
the scourge of anti-Semitism.
    Ms. Wasserman Schultz. Thank you.
    Mr. German, I'm going to skip the preamble, because we've 
been through the parade of outrageous, unacceptable violence 
that has taken place in this country just very recently.
    You wrote in December that Congress has given DOJ officials 
plenty of tools to attack far-right violence; they just require 
the will to use them. What tools do we have but are not using 
but should be using to address White supremacist violence, 
especially at places of worship?
    Mr. German. So I think it's very important that law 
enforcement focus on the acts of violence and the most serious 
acts of violence.
    I mean, one of the things that doesn't get acknowledged 
enough is that Charlottesville was about the seventh or eighth 
in a series of violent White supremacist riots that occurred 
all across the country involving many of the same people. And 
it wasn't until ProPublica actually wrote a story documenting 
the travels of one particular group that the FBI finally took 
notice and conducted an investigation and indicted eight 
individuals. And those individuals remain the only eight 
individuals indicted federally from the Charlottesville attack.
    So law enforcement for some reason has lost the focus on 
these violent actors who should be known. Many of these people 
had criminal records.
    Ms. Wasserman Schultz. Exactly.
    Mr. German. And why they were able to travel around the 
country--and, again, Charlottesville, unfortunately, was not 
the last. There continue to be these kind of riots around the 
country, often led by people who have long criminal histories 
and yet are continuing to act violent.
    Ms. Wasserman Schultz. Thank you.
    Just in the remaining time I have, any of you that feel 
compelled to answer this question:
    We've all spoken today about how our Federal Government 
defines and tracks hate crimes and the severe underreporting 
that has taken place. My district, for example, includes the 
town of Southwest Ranches, which is home to the Sikh Society of 
Florida. Sikh members of my community have spoken out about 
increasing harassment since 9/11, but crimes against Sikhs were 
not counted by the FBI until 2015.
    And I want to bring attention to the fact that, in the 
ADL's report, 2,040 of the 16,149 reporting agencies, less than 
13 percent, reported one or more hate crimes to the FBI. That 
means that about 87 percent of all participating police 
agencies affirmatively reported zero hate crimes to the FBI. 
Ninety-two of those cities, including five in Florida, have a 
population over 100,000 people.
    And I could go on, but for anyone on the panel, what are 
some of the most egregious gaps in how the FBI currently 
collects and reports hate crime data that should be immediately 
corrected?
    Mr. Raskin. And let's just take one answer to that.
    Mr. German, were you motioning?
    Mr. German. Sure.
    So, again, just because an agency isn't reporting doesn't 
mean that there aren't hate crimes. In 2000, Northeastern 
University did a study and found 5,000 hate crimes that had 
been reported internally within State governments but were not 
reported to the Federal Government. So it's key to understand 
that.
    And what the Federal Government can do is follow the Hate 
Crime Statistics Act and actually go out and find these crimes 
and report them rather than relying on the States to do it.
    Ms. Wasserman Schultz. Thank you.
    And before I yield back, Ms. Bro, I just want you to know 
and I hope you take at least some comfort in knowing that this 
chairman and our majority takes this issue of White supremacy 
and the rise of horrific bigotry in this country very seriously 
and that we keep your daughter in our heart and our mind every 
single day and we fight and will continue to fight in her 
memory. And thank you for standing up and being her champion.
    Ms. Bro. Thank you.
    Mr. Raskin. Thank you, Ms. Wasserman Schultz. And you speak 
for all of us there.
    What we're going to do now is we're going to have a final 
set of questions from Ms. Tlaib from Michigan. And I'm going to 
ask my friend Congresswoman Eleanor Holmes Norton to take the 
chair. At that point, she will declare the subcommittee in 
recess until we finish our voting, and we'll come back. So, if 
you don't mind, please, everybody, hang out here, and we have 
several more members who are going to continue the questioning.
    Ms. Norton?
    And I now recognize Ms. Tlaib for five minutes.
    Ms. Tlaib. Thank you so much, Chairman.
    Ms. Bro, I want to thank you so much for your courage. 
Every time you spoke today, I mean, you really are very sincere 
and genuine about combating hate in our country, and I 
appreciate it, as a mother raising two Muslim boys in this 
country. I want you to know I'm going to teach them about your 
daughter, Heather. I'm going to talk about her and hopefully 
create a legacy of continuing to be able to speak truth to 
power, as you said. Thank you so much, again, for your courage.
    I want to go ahead and talk about the rise--obviously, the 
rise of supremacy. That's why we're here. But we're looking, as 
Members of Congress, at the dramatic reduction in resources 
that have been designated to address and prevent this.
    And this issue hits very close to me. You know, this man, 
Nicholas Diedo or something, a White male, recently was charged 
with arson and hate crimes in Dearborn Heights in my district 
because he targeted Arab-American business owners, continued to 
target them. So this is very, very important to me, that my 
families at home feel safe in our country.
    And so my question is really direct. And, Mr. Selim, I know 
that you are very, very intimate in regards to looking at this. 
But we saw that DHS reassigned personnel in the Department's 
intelligence and analysis unit tasked to tracking and combating 
violent White supremacy. The primary purpose of that team was 
to share information, as you talked about.
    I think you said 71 percent of these White supremacists are 
actually successful. Is that correct?
    Mr. Selim. The statistic was kind of a two-sided coin in 
the sense that, of Islamist-inspired terror attacks, the data 
out of University of Michigan said that over 70 percent of them 
were interdicted in the planning phase, while, on the White 
supremacist side, over 70 percent of them were successful in 
committing actual acts of violence.
    Ms. Tlaib. Absolutely. And we want to prevent massacres 
like the Tree of Life in Pittsburgh and Mother Emanuel Church 
in Charleston.
    So I'm going to be really frank, and I'm a person--I'm new, 
four months here. And I'm going to ask you directly, all of 
you, and I want you to answer honestly. Has this administration 
blatantly failed to acknowledge the problem of White supremacy 
and, in fact, made decisions to cover it up?
    Ms. Bro. I will not give you my personal opinion, but I 
will tell you what David Duke, Richard Spencer, and Matthew 
Heimbach, Jason Kessler have all thanked the current 
administration for giving them support, for giving them a 
platform that they have been missing for many years.
    Mr. Selim. Congresswoman, as you know, I am intimately 
familiar with these issues. And the way that I'd answer your 
question is that, if you look at the budget requests that have 
come to Congress from the Department of Homeland Security over 
the course of the past three years, you will see that the 
resources dedicated to the point that the chairman made on 
community partnerships, on supporting locally based efforts to 
prevent and intervene in instances of radicalization and 
violence, those budgets and those personnel counts have been 
decimated.
    And that's what the budget numbers tell. That's not 
analysis. That's not opinion. Those are facts.
    Mr. German. And I would add that there's also a problem 
with the lack of law enforcement around these issues, not just 
at the Federal level but at the State and local level. So it's 
not just the messaging that's coming down from the White House 
but, rather, the fact that there's not response that needs to 
happen to make sure that these people know they're not allowed 
to come into our communities and cause harm.
    Mr. Ricci. Thank you for the question, Congresswoman.
    As a Muslim American, I think I can say that, with 
President Trump being in office, there is a collective pit 
inside the Muslim stomach, meaning that, by what he has said 
and what he has done, the promise of America, what it can be, 
the experiment of America, what it should be, what we're 
heading toward, is something that has caused doubt in the 
Muslim mind. Are we going to be able to get there? Are Muslims 
going to be part of that equation?
    Mr. Austin. Undoubtedly. With the rhetoric, the resources, 
there is no doubt that this administration has this completely 
backward.
    Mr. Soave. I'll just say, I can't speak to the allocation 
of law enforcement funding.
    I do think there is perhaps too much direct causal blame 
being assigned to Trump or the administration for the rise of 
the alt-right. There, of course, the alt-right has also talked 
about how they hate Trump for some members of his family 
marrying Jewish people, I mean, is the kind of insane things 
they think.
    So I'd be a little bit more cautious. I don't know that 
there's good direct evidence that it is fueled by something 
Trump has done.
    Ms. Tlaib. I'm going to just end with, I understand what 
you were trying to say. My whole thing is, I'm saying, has this 
administration failed to acknowledge the problem? I'm not 
saying--I mean, I'm looking at resources, and, as a Member of 
Congress, what do I need to do is get the facts, create the 
whole doctor-versus-patient relationship that Ms. Bro was 
talking about. And that's what we need to be able to stop the 
violent attack on communities of color and various diverse 
ethnic and religious backgrounds.
    Thank you so much, Chairwoman. I yield the rest of my time.
    Ms. Norton.
    [Presiding.] Thank you very much for those questions.
    I'm going to continue the hearing. And I certainly wouldn't 
begin without thanking Ms. Bro, particularly in light of the 
tragedy she experienced, for your work now as an emissary for 
all of us in a way that will capture the attention of the 
American people, as needs be. You are very brave.
    My question is about the FBI statistics. I must say that I 
am very concerned about the kinds of incidents that get missed. 
Now, I understand that in another hearing we're having, we'll 
have Department of Homeland Security and the FBI. But I'd be 
very interested in, those of you who follow these issues, about 
what it means to have perhaps some confusion about what the 
statistics now report.
    Remember, the FBI is supposed to be the gold standard. 
Well, I have some examples here that show that that gold 
standard is tattered because of the failure of the FBI to pick 
them up.
    And, by the way, Mr. Soave, you suggest--and I can 
understand that statistically it's not unheard of to suggest 
that there may be other reasons why these stats appear to be 
going up, as the number rises, that they may have been 
underreported, and you suggest other reasons as well. There are 
organizations, Mr. Soave, like the ADL, for example, where even 
when the numbers are smaller than they are today, would've been 
keeping track. So I really do doubt that the failure is to 
notice that these statistics were beginning to rise.
    I, for example, can point out instances which I was sure 
would be in the FBI's data. For example, in Irving, Texas, a 
gay high school student was beaten so badly that he had to have 
reconstructive surgery--broken teeth, eye socket fractured. 
That report wasn't even included in the hate crime statistics 
for that year.
    Another example. February 2017, in Kansas City, a man--you 
would think this would not have been missed--yelled ``get out 
of my country'' as he murdered an Indian American man. How 
could that have been overlooked as a hate crime?
    And, of course, we know that Heather Heyer's murder in 
Charlottesville was also omitted from those statistics, as were 
the attacks on others on that same day.
    Look, some of these were in plain sight, whether or not the 
FBI is capturing them.
    By the way, Ms. Bro, were you aware that the statistics may 
not have captured what happened in Charlottesville?
    Ms. Bro. Yes, ma'am, I have been aware of that.
    If I may, part of the problem with that is it's simpler for 
people to prosecute the actual crime rather than the hate 
crime, because with the hate crime you have to go much deeper 
and prove the intent. So, many times, law enforcement will 
choose to simply prosecute and report the actual crime as a 
crime, say, the homicide, vandalism, or whatever, rather than 
make the extra----
    Ms. Norton. Yes.
    Ms. Bro [continuing]. allocations of their own resources--
--
    Ms. Norton. And I understand that, Ms. Bro. That's why I 
gave you three incidents that nobody could've missed----
    Ms. Bro. Right.
    Ms. Norton [continuing]. it seems to me, but the FBI did. 
And suggesting that even that system--the FBI gold standard 
system is deeply flawed.
    And here are some other statistics. The FBI reported 6,121 
hate crimes in 2016, but the Federal Government's own National 
Crime Victimization Survey estimates 200,000 hate crimes each 
year, on the average. I must say, I never expected those kinds 
of disparities and discrepancies.
    Mr. German, what is your understanding of, first, the FBI's 
explanation for these deficiencies and any understanding you 
have as to how we could have such differences----
    Mr. German. Thank you.
    Ms. Norton [continuing]. in two official crime statistics?
    Mr. German. Exactly. And if you look at the numbers, they 
actually track. So we know that, of the 200,000 victim reports 
that they say were hate crimes, half of them were not reported, 
so we cut down to 100,000. And we know that the FBI's numbers 
from the Uniform Crime Reports are actually only 12 percent of 
law enforcement agencies reporting. So if you add that other 87 
percent, you would create a number that's up around 70,000. So 
100,000 to 70,000 then look like numbers that are somewhat more 
closely aligned.
    But it's the fact that we have this Federal policy of 
deferring to State and locals, who don't necessarily have the 
tools or the interest in trying them, some for practical 
reasons, as Mrs. Bro suggests. Sometimes it's hard to prove 
what was in somebody's mind when they committed an act. But we 
should still acknowledge that crime for what it is and 
prioritize its investigation in a way----
    Ms. Norton. You know, there's a difference between 
prosecution and acknowledging that----
    Mr. German. Exactly.
    Ms. Norton [continuing]. an incident has occurred. So the 
failure to acknowledge--in fact, I wouldn't put the two in the 
same bouquet at all. Because the incidents, the ones I offered, 
could not be missed and I don't think were missed, but they 
weren't reported. So I do understand what you're saying, Mr. 
German.
    But, Mr. Austin, I'd be interested in your view, 
particularly given the discrepancies I just indicated, what 
actual effect on law enforcement--because Ms. Bro made that 
distinction--actual effect on law enforcement it has to have 
such underreporting by the official agency, the FBI, of the 
Federal Government.
    Mr. Austin. I mean, I think the effect is that law 
enforcement doesn't know what to do with those numbers and 
largely just ignores them. I mean, they don't take action.
    Where you have something that's telling you that you don't 
have a problem, you're not likely to take action to try to 
solve that problem. And you're not looking for solutions in the 
way that you would look if you actually had good data telling 
you: Here's what's happening, here's where it's happening, 
here's when it's happening, here are the perpetrators, here are 
the victims. Then law enforcement can actually take that data 
and do something with it. But when you have silly numbers, you 
don't do anything with them.
    Ms. Norton. So do you think that not being able to do 
anything with them because you don't have accurate numbers 
could have an effect on the growth, the increase in hate 
crimes?
    Mr. Austin. Absolutely. Absolutely. I mean, if we don't 
base it on data and facts, then we're just guessing. Those are 
our two options here. And I'd prefer not to keep guessing.
    Ms. Norton. Yes.
    Yes, Mr. Selim.
    Mr. Selim. Madam Chair, if I may just chime in with two 
points here, that this is an important conversation about the 
quality of data and what the statistics show, but there's also 
another very important point that I want to make sure is 
introduced as part of this conversation. Hate crimes, by their 
definition, are intended to sow fear in the perpetrated, the 
victim, and the communities that they represent.
    And so Ranking Member Roy made the point earlier, one is 
too many. The most important number here really is one. When 
individuals, when victims or families of victims are victimized 
by hate crimes or hate-related incidents, those tear at the 
fabric of the communities that we live and work in on a day-to-
day basis.
    And the second point is, as we're wrapping our brains 
around how to best address this, it really boils down to two 
buckets: training and data. We must make sure that local law 
enforcement officials are prepared to identify, report, and 
respond to hate crimes. And better data, at the end of the day, 
will mean or could mean a better allocation of resources and 
prevention strategies. And those two things in combination 
ultimately need to be a substantive part of this conversation.
    Ms. Norton. Yes.
    Well, look, we have a Federal system, and these crimes are 
mostly dealt with at the local level. Do we need some way to 
get a national reporting system, regardless of whether the 
State agencies involved move on it? And if so, how do you think 
that should be handled? What should we do to make these 
statistics jibe with one another and both help law enforcement 
and help the public know what is happening?
    Yes, Ms. Bro?
    Ms. Bro. I don't think localities are going to be 
interested in reporting at all as long as they don't have to, 
unless they really need the help with money for prevention. 
Because, otherwise, it's not to their advantage to report that 
they have a problem. It's to their advantage to look like that 
we have no problem here, we're a wonderful place to live, y'all 
come.
    Ms. Norton. Uh-huh. So you would need a compulsion like a 
Federal law that says you must report?
    Ms. Bro. But I hate to have an unmandated--I mean, an 
unfunded mandate. I can tell you from working in government and 
secretarial work and also as a schoolteacher for many years, we 
get a lot of those.
    We're going to have to probably dangle a carrot of some 
sort for localities to even be interested in reporting. If the 
Feds are going to take that over, then money is going to have 
to be allocated that way. Money is going to have to follow it 
one way or the other.
    Ms. Norton. But you do agree that we need a uniform system?
    Ms. Bro. Well, we need something fixed, because we have a 
mess right now.
    Ms. Norton. Uh-huh.
    All right. The committee will be in recess. And I thank the 
witnesses for their patience during this recess on the floor. 
Now there's a series of votes, but the full committee will 
reconvene shortly.
    [Recess.]
    Mr. Raskin.
    [Presiding.] The subcommittee resumes its proceedings now. 
Thank you for your patience for us.
    The ranking member of the subcommittee is going to reserve 
his time, and I'm going to call on the gentlelady from 
Illinois.
    And I'm also having to absent myself just to go over to 
Judiciary, and I'm going to turn it over to the vice chair of 
the committee, the distinguished Representative from the 14th 
District of New York, Ms. Ocasio-Cortez, who will preside.
    And I would now recognize Ms. Kelly.
    Ms. Kelly. Thank you, Mr. Chairman.
    And thank you to our witnesses for this important hearing.
    I am troubled by the lackadaisical response of the FBI and 
DHS, considering the frequency at which these acts have 
occurred in recent months and the threats they obviously 
present to Americans.
    As we have talked about already, just within the last two 
months, there have been several significant crimes based on 
race, religion, and ethnicity: the churches, the synagogues, 
the two Jewish men attacked in New York City, in Brooklyn, as 
the assailants yelled ``we hate Jews.'' A car rammed into a 
group of eight people crossing at an intersection in Sunnyvale, 
California. They were intentionally targeted based on their 
race and the belief they were of the Muslim faith. The response 
to each of these horrific acts seems little better than, ``Let 
us get back to you on that.''
    Mr. German, as you are aware--are you aware of any other 
similar delays, where an immediate threat has been identified, 
yet the issue isn't being addressed because the office hasn't 
been organized?
    Mr. German. It's hard to tell why there's a lack of 
attention to this. And I think if you look at these underserved 
communities, whether it's Native Americans, whether it's 
migrants, whether it's LGBT communities, that a lot of the 
violence against them somehow falls into an accountability 
void.
    And I think it's very important that Congress compel the 
FBI to take the Hate Crime Statistics Act seriously and go out 
and collect this data. They know how many bank robberies happen 
in every FBI field office's territory. How is it they don't 
know how many violent crimes against people of color and other 
communities are occurring? It's something that they should have 
available to them.
    Ms. Kelly. Thank you.
    While I understand the need for a structural approach to 
this problem, the administration needs to have a short-term 
plan, one that will serve to protect those from these acts of 
terrorism now. We don't have any time to waste.
    Mr. Selim, based on your experience, what steps could the 
FBI and DHS take in the interim to address this threat?
    And before you answer the question, I wanted to let you 
know I'm a diversity trainer and first trained by the Anti-
Defamation League.
    Mr. Selim. Oh, great. Thank you for offering that.
    And in my role overseeing all our national programs, it's 
so important to note that, as we talk about addressing the root 
causes of not just anti-Semitism but all forms of bias, 
bigotry, and intolerance, it's so important to note that this 
work where we're talking about hate crimes, we're talking about 
adults, but our work and the work that I have the privilege to 
oversee in K through 12 classrooms and with teachers across the 
United States is really addressing this at the earliest 
possible stage. And there's really no greater thing that can be 
done when we're talking about prevention.
    Congresswoman, when it comes to your question on what more 
can be done, I've outlined a number of things in my written 
Statement. I'll offer two specific comments here to be brief.
    First is the resources that we've continued to talk about, 
when it comes to analytics, when it comes to analyses on these 
issues, and when it comes to publicly available reports by the 
Federal Government, irrespective of the department or agency, 
on the threat of White supremacist violence not just made 
available to the American public but to State and local law 
enforcement across the country.
    The second is, I am not aware in this administration of an 
overarching policy to specifically address these issues. It's 
been addressed in the National Counterterrorism Strategy as a 
priority, but the resources and the actionable policy that need 
to follow those notations have not been made.
    Ms. Kelly. So you feel that that's a role, really, Congress 
can play, actually, is making sure they have the adequate 
resources to deal with this problem.
    Mr. Selim. And the mandate to create the policy that will 
direct its programs.
    Ms. Kelly. Okay.
    Anybody else have anything to say about that?
    Mr. German. I would just add that they need to have a 
strategy, right? I mean, right now, everything is arbitrary. A 
crime that occurs in one district is ignored in a different 
district. Rather than understanding that, okay, we have States 
that aren't stepping up and enforcing the law in these areas, 
so let's put resources there--there are States that don't have 
hate crime laws. Let's put these resources in those areas that 
aren't getting served to make sure that at least the Federal 
Government is acknowledging that these crimes are occurring 
when the State government isn't.
    Ms. Kelly. Okay.
    Mr. Austin, what impact does a delay in immediately 
addressing this threat have on communities most affected by 
these acts?
    Mr. Austin. I think you have fear. These communities are 
worried. These communities, their children are worried. The 
parishioners are worried. That prevents people from going out 
and enjoying their communities and spending time with their 
communities and participating.
    When you don't address these problems--and this is what we 
saw in this space and why it was so important to involve the 
communities, is that you're turning kids against the 
government. They're going to do things because they learn their 
lessons based on how they're treated. So every day that we kind 
of sit around and allow the White supremacy to flourish, we're 
hurting our young people. And, you know, these are going to be 
problems that we're going to have to deal with later.
    Ms. Kelly. When I listen to you speak, it reminds me, I 
represent--my district is in the Chicagoland area. And what 
you're saying is what our kids that are in the gun violence 
space, what they face every day. And if you don't--it's like, 
if you don't do anything, the trauma that comes along with that 
and growing up with that.
    Thank you both.
    While we certainly need to look for long-term solutions, we 
can't afford to wait to address the issue now. People are 
dying. I expect to hear from the FBI and DHS next month 
precisely what they are doing in the short term to address this 
frightening rise in hate violence.
    And I yield back the balance of my time.
    Ms. Ocasio-Cortez.
    [Presiding.] Thank you.
    The ranking member and the chair reserve their time, and 
the chair now recognizes the gentlelady from Massachusetts, Ms. 
Pressley.
    Ms. Pressley. Thank you, Madam Chair.
    There is not a single doubt in my mind that the growing 
number of hate crimes taking place in this country are a 
byproduct of the hateful rhetoric being spewed regularly by the 
current occupant of our White House.
    This administration has emboldened White nationalism, White 
supremacy, and far-right extremism, including anti-Semitism and 
Islamophobia, all while suggesting these groups do not present 
a growing threat to our communities and national security. We 
know otherwise, and the witness testimony we've heard today is 
further proof that this is not the case.
    I want to thank the witnesses for being with us today. And 
I want to extend my deepest condolences to Mrs. Bro and the 
countless other families who have lost loved ones due to 
intolerance, hate, and bigotry.
    Mrs. Bro, your courage to come before us today and to stand 
up for what is right is a testament to the love that guided 
Heather's life in her quest for racial and social justice.
    Although there is no hierarchy of hurt, throughout our 
Nation's history, hate crimes have disproportionately impacted 
the Black community. Since 1995, Black Americans have been 
victims of 66 percent of all racially motivated hate crimes. 
The numbers don't lie: Black Americans continue to find 
themselves at the greatest risk.
    This year marks 400 years since the first African slaves 
arrived on the shores of Jamestown in the hull of ships, robbed 
of their freedom, culture, and humanity. Racism against Black 
Americans is entrenched in the enslavement of our African 
ancestors and has manifested in our Nation's institutions and 
policies.
    And despite the progress we've made as a country, Black 
Americans are still treated as second-class citizens, 
disproportionately targeted for driving while Black, walking 
while Black, lunching while Black, organizing while Black, 
literally existing while Black.
    In 2017, an FBI intelligence assessment leaked, 
identifying, quote/unquote, ``Black identity extremists'' as a 
prime threat to law enforcement officers. To be clear here, the 
FBI was tracking peaceful protesters while advising local law 
enforcement agencies that these groups were a violent threat.
    This is the same agency that secretly spied on Dr. King and 
civil rights activists for their pursuit of equality for Black 
Americans--a movement that at the time, if we're telling the 
truth, was vilified and yet today we celebrate.
    Mr. Austin or German, yes or no, since I have limited time, 
do you believe that so-called Black identity extremists are a 
significant threat to law enforcement? Yes or no?
    Mr. Austin. The name ``BIE'' is a made-up term that is 
reckless and that is something that is simply going to continue 
the problems that we are seeing right now, where 1,000 people 
die at the hands of law enforcement every year. It should've 
never been put out, it should've never been given to State and 
local, it should've never been done.
    Mr. German. And I agree with that Statement.
    Ms. Pressley. Okay. So, again, for the record, do you 
believe that so-called Black identity extremists are a 
significant threat to law enforcement?
    Mr. German. No, I don't believe there's a such thing.
    Ms. Pressley. Thank you.
    Mr. German, are you aware of any data that would justify 
the FBI's focus on that issue or surveillance of groups like 
Black Lives Matter?
    Mr. German. No, not data that would justify that. I don't 
believe there is data that would justify that kind of 
surveillance.
    Ms. Pressley. Are you aware of the agency's use of face 
recognition technology to survey and target groups like Black 
Lives Matter?
    Mr. German. I am aware that facial recognition technology 
is being used in law enforcement broadly and by the FBI as 
well.
    Ms. Pressley. And at a time when Black Americans are three 
times more likely to be killed by police, a document like the 
FBI's intelligence assessment is not just misleading, it is 
reckless and dangerous.
    Mr. German, what do you see as the danger posed by the 
FBI's messaging on so-called Black identity extremists?
    Mr. German. Well, if you look at that intelligence 
assessment, it has a lot of information very poorly analyzed, 
putting things that are not related together in a way that 
poses a scary message to law enforcement without any advice 
about what to do about it. So all that they can do is be afraid 
that Black activists pose a threat to them.
    So when any kind of group goes out to engage in its First 
Amendment rights, the way the police are going to respond to 
them is as if they are a physical threat to law enforcement. 
And that can be very dangerous.
    Ms. Pressley. All right.
    And since I'm running out of time, Madam Chair, I ask 
unanimous consent to include a Statement for the record from 
Rabbi Jason Kimelman-Block, director of Bend the Arc: Jewish 
Action.
    Ms. Ocasio-Cortez. Without objection, so ordered.
    Ms. Pressley. Thank you.
    One of Heather's last Facebook posts shared was, and I 
quote, ``If you're not outraged, you're not paying attention,'' 
unquote. I hope this conversation sparks the outrage that we 
need to finally shed light on the evils of White nationalism 
and far-right extremism and invokes the will and the courage to 
tackle it head-on.
    Thank you, and I yield.
    Ms. Ocasio-Cortez. Thank you.
    I will now recognize myself for five minutes of 
questioning.
    Ms. Bro, I want to take the time to truly thank you for 
coming in today. And for so many of us, with the most painful 
moments in our entire lives, it's--we all deal with it in 
different ways. And for so many people, we need to internalize 
that and try to move on and bury that pain. And I just want to 
commend you for being willing to relive this moment in order to 
enact change in our country in recognizing the danger of White 
supremacy. So I just want to take that moment to recognize you 
and your heroism here today.
    Ms. Bro. Thank you so much.
    And I would like it, as part of the record, Stated that 
Heather was killed primarily because Mr. Fields was aiming to 
kill someone who he thought was Black. He drove into a crowd to 
kill people in support of Black Lives Matter.
    I have been given a huge platform across the country, in 
some forums even around the world, because I'm White. And many 
Black parents lose their children, many Muslim parents lose 
their children, Jewish parents lose their children, and nobody 
pays attention. And because we have this myth of the sacredness 
of the White female, I've been given a platform.
    So I'm going to use that platform to keep drawing attention 
back to where the issues are.
    Ms. Ocasio-Cortez. Thank you, Ms. Bro.
    And I'm moved in hearing you speak about these issues so 
eloquently. And in your experience in living through this 
country and recognizing the privilege that you have, what was 
that process like for you? How did you come to be able to 
articulate these points? How did you see it? How did you 
experience it? And how do you educate others?
    Ms. Bro. Always with the mindset of a teacher. I believe in 
learning what I need to learn and then putting it back out as 
simply and straightforward as possible for the listener. I am 
still doing that.
    I find a lot of people have no clue of the privilege that 
they have nor how they should be using that privilege. As I 
mentioned before, many people think being nonracist is okay and 
that's enough to solve our country's problems. And, instead, we 
need to be actively anti-racist.
    Ms. Ocasio-Cortez. What is the distinction between being 
nonracist and anti-racist?
    Ms. Bro. Nonracist is saying, ``I don't recognize anybody's 
color. I think that we're all equal and we all be treated 
fairly.'' And that's kind, to a point. I understand what 
they're trying to say, and it comes from a place of good 
intention.
    However, we need to recognize our differences, and we need 
to rejoice in our differences. America is stronger for all of 
our differences brought together. And we need to accept that 
and go out of our way to stand up against racism when we see 
it. To be anti-racist means to take an active stance of ``I am 
not going to tolerate that in my presence.''
    Ms. Ocasio-Cortez. Thank you. Thank you so much, Ms. Bro.
    Ms. Bro. Thank you.
    Ms. Ocasio-Cortez. Mr. Ricci, the San Bernardino attack of 
December 2, 2015, was labeled as a domestic terrorist incident. 
Is that correct?
    Mr. Ricci. I believe so.
    Ms. Ocasio-Cortez. Mr. Austin, do you know, the June 12, 
2016, Pulse nightclub shooting was also labeled as a domestic 
terrorist incident, correct?
    Mr. Austin. That's my understanding.
    Ms. Ocasio-Cortez. Mr. Selim, when Dylann Roof, a 21-year-
old White supremacist, entered the Emanuel African Methodist 
Episcopal Church and murdered nine African American worshipers, 
was that labeled as an incident of domestic terrorism?
    Mr. Selim. I don't believe that it was. But there's no 
question that it was.
    Ms. Ocasio-Cortez. So in your belief as a leader in this 
space, it was an incident of domestic terrorism but it was not 
labeled as such?
    Mr. Selim. That's correct.
    Ms. Ocasio-Cortez. Was the White supremacist shooting at 
Pittsburgh Tree of Life synagogue labeled as a domestic 
terrorist incident?
    Mr. Selim. I'm not aware that it was, although then-
Attorney General Sessions came out and called it that. But the 
charges that have been brought to bear and are currently 
playing out in court are not ones of terrorism.
    Ms. Ocasio-Cortez. So, despite all of that rhetoric that we 
were hearing, they weren't actually labeled--these White 
supremacist incidents were not labeled as domestic terrorist 
incidents.
    And, you know, I really dug into some of these 
distinctions, what was labeled as domestic terrorism, what was 
labeled as a hate crime. And I could not help but--as much as I 
tried to dig in and explain, I could not help but feel and see 
that attacks committed by Muslim Americans were almost 
automatically labeled as domestic terrorist incidents, yet 
White supremacist shooting after shooting after shooting is 
not.
    And I can't help but come to the conclusion that these 
labels--what's being labeled as terrorism is almost exclusively 
coming down to the identity. And it seems as though White men 
invoking White supremacy and engaging in mass shootings are 
almost immune from being labeled domestic terrorists in their 
violence.
    Do you find similar patterns, Mr. Selim?
    Mr. Selim. I think when we look at--and I'll just call it 
what it is--the terrorism that has been perpetrated against not 
just Jewish communities but against Muslim communities, against 
Christian communities in Charleston, against Sikh communities 
in Oak Creek, Wisconsin, and a range of other communities that 
organize based on race, national origin, ethnicity, color, et 
cetera, like, these acts that take lives, I don't know how you 
can label these actions in the eyes of the victims or the 
families or the communities that are affected anything other 
than acts of terrorism.
    Ms. Ocasio-Cortez. Thank you. Thank you very much.
    And one last line of questioning.
    Mr. German, in your 16-year career as an FBI special agent, 
you spent a great deal of time undercover in White supremacist 
organizations. Is that correct?
    Mr. German. Yes.
    Ms. Ocasio-Cortez. And what were some of the impacts or 
effects that you saw, if any, with some of these groups that 
were not being recognized as White supremacist groups, some 
violence or acts you see committed, that they kind of get off 
without being labeled as White supremacist incidents? Does that 
affect the dynamic of those groups? Does it embolden them? What 
did you see?
    Mr. German. It certainly emboldens them, and it deprives 
law enforcement of crucial intelligence.
    There was one particular group that, when we started 
engaging with them, they were bragging about certain bombings 
they had committed, and we struggled to try to find evidence 
that those bombings actually occurred. And it turned out they 
had all been treated as vandalism.
    Fortunately, nobody had been physically hurt in those 
bombings, but it was a progression toward a more violent plan. 
And had there been more focus on actually identifying these 
incidents and calling them what they are, I think that could 
have been interdicted much sooner.
    Ms. Ocasio-Cortez. All right.
    The chair will now recognize the gentleman from Texas, Mr. 
Roy, for five minutes.
    Mr. Roy. I thank the chairwoman.
    And, again, thank you all for your continued patience as we 
go through voting. And it makes for a long afternoon, so thank 
you all for doing that.
    A couple of quick questions. We've had a lot of great back-
and-forth today and, I think, some helpful information. I know 
we have some assignments on trying to figure out how we can 
improve some of the data collection. I know that my colleague 
from North Carolina threw some of that out. I would agree.
    And would ask, by the way, in those recommendations, 
particularly those with expertise, Mr. Austin, Mr. German, and 
others, I think Mr. Selim as well, about how we can encourage 
local law enforcement to participate when we know the burdens 
on local law enforcement. So, you know, that's a difficult 
question, right? I mean, we've run into some of that.
    An observation, though, just to make some clarity--and I 
alluded to this in my opening Statement--about why we have the 
issues we have with respect to domestic terrorism versus how we 
approach international terrorism, and then how we deal with the 
branches of international terrorism we have in the United 
States. In other words, these are distinct things for distinct 
reasons.
    And so one of the questions I want to point out, I mean, 
you look at--there's a Forbes article talking about deadliest 
terrorist groups in the world today. Of the 18,814 deaths 
caused by terrorists around the world last year, well over half 
are due to the actions of just four groups: the Islamic State, 
the Taliban, Al Shabaab, and Boko Haram.
    And we can go around and we can go through a bunch of data 
on that, and that's not really the purpose of this hearing, so 
I don't want to digress, except to say that's a real issue that 
we've been confronting, you know, for the better part of 20 
years. And many of you, or at least several of you, have been a 
part of that. And thank you for dealing with that.
    But we deal with, for example, the Islamic State in 
America. Like, it's a real thing. We have to deal with it. It's 
not a prejudicial thing to recognize the reach of the Islamic 
State in America. I've got data here that says 182 individuals 
have been charged in the United States with offenses related to 
the Islamic State, also known as ISIS and ISIL, since the first 
arrest in March 2014. And it goes through, and we could--again, 
we could go through that data.
    But would you agree, Mr. German, for example, that that is 
a problem and that that is a distinction worth making, with 
respect to how we deal with domestic terrorism or what we label 
as domestic terrorism, in light of what I mentioned earlier?
    American citizens don't really want to be surveilled. We've 
got our own issues right now trying to figure out how to 
conduct surveillance on foreign nationals when it then impedes 
and then overlaps with American citizens. And that's a very 
real concern. And I know that would be a bipartisan share of a 
concern about how we deal with that.
    And so these things are real. Could you comment on that 
just for a little bit? And then I want to go to another 
question.
    Mr. German. Sure. You know, part of the problem is we 
create these categories to organize our response to particular 
kinds of violence----
    Mr. Roy. Sure.
    Mr. German [continuing]. but those categories don't 
accurately describe what's going on.
    And I think the New Zealand attack showed many people for 
the first time that this is not a--you know, Naziism wasn't 
invented in the United States of America, and it isn't confined 
to the United States of America. It's always been a broad, 
international phenomenon.
    So, you know, part of it is making sure that our laws are 
designed to focus on the most violent actors and to focus 
there. And where we see problems is where we start to go beyond 
the people who are actually committing violence and try to 
silence entire communities or engage in surveillance activities 
of----
    Mr. Roy. Sure.
    Mr. German [continuing]. people who are not directly 
involved in committing violent acts.
    Mr. Roy. And the only I would add to that is that I agree 
with, I think, a comment I think it was Mr. Austin made--it 
might have been Mr. Ricci; I think it was Mr. Austin--that 
whatever you label it, whatever you call it, hate crime, 
domestic terrorism, whatever, let's just get the bad guys, 
right? Let's just stop what's happening.
    And so that is what would be my calling here to do, is 
whatever we need to do, tools-, resources-wise, to have a 
collective effort between state, local, and Federal to 
accomplish the goal, I think there is universal agreement that 
we want to accomplish that objective.
    And let me move on because I have one minute left, and I 
know everybody has been here a long time. I would actually, 
without objection, ask to insert that into the record.
    Ms. Ocasio-Cortez. Without objection, so ordered.
    Mr. Roy. Thank you, Chairwoman.
    Mr. Soave, just a question here. I just want to ask this 
hypothetical. Assuming a broad view of what would constitute, 
for example, a hate crime or a perspective on anti-Semitism--
and it's one of the things we've been focusing on a lot here 
today, for good reason. If a, you know, White individual or 
somebody that was part of White groups, alt-right groups, one 
of these hate groups we've been talking about, for good reason, 
some similar group, were to come forward and describe and 
suggest that, for example, that, due to a view of history, that 
a particular group of people were helpful to Jews looking to 
reclaim their home in Israel, while purposely ignoring that 
group's coordination with Nazis to actually harm Jews or block 
their move to Israel, would that be anti-Semitism for purposes 
of classifying one of these White supremacy groups who are so 
often Holocaust deniers or anti-Jewish?
    Mr. Soave. Yes, I would think so. I mean, what you're 
alluding to, I think, is a truth that anti-Semitism is 
certainly not confined to the right or the alt-right. There has 
been anti-Semitism on the left as well. We often see this on 
college campuses.
    Now we're not talking about hate crimes; we're talking 
about speech. And, again, I urge the government to take the 
most, you know, cautious approach possible, and I think you----
    Mr. Roy. Agreed.
    Mr. Soave [continuing]. agree as well.
    Mr. Roy. Agreed.
    Mr. Soave. But it is true, for instance, university 
campuses report bias incidents. Again, these things are not--
they provide a facility, a means for students and professors 
and administrators to report things that are not crimes but 
that makes people uncomfortable for some reason. And certainly 
there are incidents there that have been classified as anti-
Semitic that are coming from a different ideological direction.
    Mr. Roy. I appreciate that. Thank you.
    No more questions.
    Ms. Ocasio-Cortez. Thank you so much.
    The chair now recognizes Mr. Gomez.
    Mr. Gomez. Thank you, Madam Chair.
    Before I start, I want to acknowledge Susan Bro for just 
being here and sharing your story and the story of your 
daughter, Heather Heyer. She was an inspiration because she was 
fighting for all of us when she was down in Charlottesville. So 
thank you so much.
    I want to draw your attention to the TV screen. This is a 
glimpse of, I believe, what is Trump's America for people who 
look like me. And I would like to share some of these few 
hateful comments I receive on a weekly basis.
    Post one says: Go back home and quit destroying my country.
    Post two says: Little prick Jimmy Gomez, more than likely 
another anchor baby.
    Post three says: Were you even born here? If not, you 
should not be in office. But it would explain why you do not 
value America or American citizens, you piece of--fill in the 
rest.
    These are just a few of the hundreds of messages I receive 
on a weekly basis on Facebook, Twitter, through email. They're 
hateful, they're racist, and they're meant to marginalize the 
community that I represent and the communities like mine.
    They also echo the President's sentiments, embody his 
policies, and also reflect a dangerous desire for White 
nationalism and also embody the philosophy of White supremacy. 
And the only thing I find more disgusting than this hateful 
speech is the public figures who endorse it, the silence of the 
leaders who normalize it, and the cowardice of those who fail 
to condemn it.
    And we know that the facts are on our side, that the hate 
crimes are on the rise, and more than half of the 4,100 hate 
crimes are perpetrated by far-right extremists that occurred in 
2017. We know the facts. White supremacist attacks are on the 
rise. White nationalists are mobilizing like never before, and 
they are finding a safe haven on social media platforms.
    But I also want to point out another fact: that hate also 
sometimes leads to policy, and policy sometimes reinforces that 
hate, as well as the rhetoric of our President.
    I want to enter into the record an article from The 
Washington Post that says, ``Trump sees immigrants as invaders. 
White nationalist terrorists do too.''
    Ms. Ocasio-Cortez. Without objection, so ordered.
    Mr. Gomez. I found this article interesting because it also 
states: ``From the January 2017 mass murder of 6 Canadian 
Muslims at a Quebec City mosque to the mass murder of 11 Jewish 
congregants at Tree of Life synagogue in Pittsburgh, there was 
one theme that tied together all of the terrorists in these 
cases: The suspected gunmen in all these attacks saw immigrants 
as invaders of their countries.''
    Mr. Selim, as well as Mr. George, can you talk about the 
connection between White supremacists and White supremacy 
ideology and anti-immigrant rhetoric?
    Mr. Selim. Congressman, thank you for that question.
    So White supremacist world view or White supremacist 
philosophy is often rooted in a number of core pillars. Anti-
immigrant, xenophobic, anti-Semitic, and a number of other kind 
of hateful and bigoted ideologies are part of what make up the 
notion that the White race, quote/unquote, is under attack and 
shrinking and action needs to be taken more immediately.
    We've seen these patterns and trends. If you look at the 
manifesto of the Poway shooter and you look at what he wrote on 
these issues, if you look at the comments written that were 
publicized and brought out in many media reports after innocent 
Muslims were killed worshipping in a mosque in New Zealand, 
there is a direct correlation between xenophobic actions and 
ideologies and those that are executed--violent actions that 
are executed at the hands of White supremacists.
    Mr. Ricci. If I may jump in, Congressman----
    Mr. Gomez. Yep.
    Mr. Ricci [continuing]. the reality is that the statistics 
that we've talked about that are so poorly collected or poorly 
tracked, they are not, certainly, going to track the fact that 
I get a text message every time an occurrence like this happens 
from a worried parent or from a worried constituent. They are 
not going to track the fact that a parent will be concerned 
about their child going to school tomorrow in fear of being 
attacked. They will not track the fact that immigrants to this 
country who believe in what this country's promise is, that 
that dream of what America is is somehow now tarnished.
    And the work that we're doing here, the policies that we're 
creating, that we're talking about creating, and the statistics 
that we're talking about tracking, all of the good work that 
we're doing can be wiped out in a tweet. It can be wiped out in 
a tweet.
    Mr. Gomez. Thank you.
    I know I'm out of time. And I don't want people to walk 
away thinking I'm saying all immigration policy is meant to 
implement a White supremacist agenda. That's what I don't want 
people to walk away with. But the negative rhetoric that's 
backed up by policy, if the motivation is racist, then that 
policy can be skewed and not based on facts.
    Madam Chair, I yield back.
    Ms. Ocasio-Cortez. Thank you.
    As we wrap up today's hearing, I want to thank each and 
every one of you as witnesses.
    This hearing is the first in a three-part series on how we 
are going to approach policy changes to ensure that White 
supremacy is acknowledged in our law enforcement procedures. As 
a result, in our next hearing, we will be having the FBI and 
the Department of Homeland Security representatives and 
witnesses from those two agencies come in.
    And, you know, one of questions that we just have, briefly, 
as we close out today, is--I'm interested in hearing from each 
of you, if there is one question that you think needs to be 
asked of either the FBI or the Department of Homeland Security 
going into our second hearing, what should that question be? 
What should the question be that we are asking in our second 
panel?
    So I'll start, perhaps, with Ms. Bro.
    Ms. Bro. First off, let me state that there is an act under 
consideration right now named after two young people who died 
as a result of hate crime. The Khalid Jabara and Heather Heyer 
Hate Crime Reporting Act is something that you should consider.
    What I would ask of the FBI is: Why? What is your reason 
for what has been termed a lackadaisical attitude? Why are you 
not fulfilling that dream of being the gold standard? Why are 
you allowing your edges to become tattered?
    Ms. Ocasio-Cortez. Thank you.
    Mr. Selim?
    Mr. Selim. On the legislative side, I want to echo Ms. 
Bro's point. The act has--I think it's--I don't know if it's 
out of committee yet, but--has been referred to as the NO HATE 
Act as well.
    This is a concrete legislative action that can be taken 
that the Congress should strongly consider and I would urge 
this committee to consider as well, in addition to 
Representative Schneider and Senator Durbin's work on the 
Domestic Terrorism Prevention Act. Those are two things that 
the Congress can look at and take immediate steps on.
    When it comes to asking questions to departments and 
agencies--Homeland Security, the Department of Justice, the 
FBI, specifically on DHS--why was there a reduction in dollars 
and personnel working on terrorism prevention, and what is 
being done instead of that?
    I think it's as simple as that. And we'd be happy to work 
with you and other committee staff to unpack those numbers and 
understand what that means.
    Ms. Ocasio-Cortez. Thank you very much.
    Mr. German?
    Mr. German. My question would focus on information that was 
requested in the Domestic Terrorism Prevention Act that was 
introduced in 2017. And very specific information would have 
been requested--or was requested through that act that is still 
in process: looking on one side of the ledger, about the number 
of attacks broken down by each category the domestic terrorism 
program was divided to; and then on the other side of the 
ledger, the resources devoted to the investigation of those 
particular groups.
    And the FBI has recently reorganized its categorization to 
change those significantly. And what I would ask is whether 
they ran those numbers when they saw the act and whether those 
numbers had an impact on whether they decided to change them, 
to hide the disparity in that.
    Ms. Ocasio-Cortez. Thank you, Mr. German.
    Mr. Ricci?
    Mr. Ricci. Congresswoman, I would say that we should ask 
the FBI and our Federal agencies, are we truly engaged, are 
they truly engaged with the communities that that he serve? Do 
they understand those communities? Do they understand what is 
motivating them, what their fears are, where they come from?
    That lack of understanding maybe breeds a lack of approach. 
And in service to those communities, I think it would be much 
more--it would be better if they did engage, if they did engage 
at a much more substantial level.
    Ms. Ocasio-Cortez. Thank you.
    Mr. Austin?
    Mr. Austin. Yes. I would ask them, if you claim to be an 
evidence-based organization, why won't you actually start 
gathering good evidence and stop wasting your resources on 
vilifying people who are rightfully concerned with excessive 
use of force by law enforcement?
    Ms. Ocasio-Cortez. Thank you.
    And Mr. Soave?
    Mr. Soave. Sure. I will just say, you know, I would hope 
that, when you speak to the law enforcement, FBI, you know, 
keeping in mind that this is a civil rights but also civil 
liberties subcommittee, you know, bringing up--I appreciate 
some of the things Representative Pressley talked about, about 
how law enforcement has in the past surveilled activists of 
color, things of that nature, all Americans. So that when we 
talk to the FBI, we make sure they're keeping in mind, you 
know, what are we going to do to combat some of this hate, but 
with keeping in mind the civil liberty rights that all people, 
even very vile people, have to express their views as long as 
it's not violence they're engaged in.
    Thank you.
    Ms. Ocasio-Cortez. Thank you very much.
    I'd like to thank all of our witnesses for testifying 
today. This is an extraordinarily difficult subject to broach 
in broader conversation. It raises questions of what is White 
supremacy, what is anti-Semitism, what is anti-Black racism, 
what is Islamaphobia. And those conversation are hard to have. 
And I commend each and every one of you for the role that you 
are playing in making sure that we move forward as a country.
    Without objection, all members will have five legislative 
days within which to submit additional written questions for 
the witnesses to the chair, which will be forwarded to the 
witnesses for their response. I ask our witnesses to please 
respond as promptly to any written requests as you are able.
    Ms. Ocasio-Cortez. This hearing is now adjourned. Thank you 
very much.
    [Whereupon, at 5:03 p.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
